<html>
<title> - PAKISTAN'S FEDERALLY ADMINISTERED TRIBAL AREAS (FATA) CHALLENGE: SECURING ONE OF THE WORLD'S MOST DANGEROUS AREAS</title>
<body><pre>[Senate Hearing 110-762]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 110-762
 
                PAKISTAN'S FEDERALLY ADMINISTERED TRIBAL
                  AREAS (FATA) CHALLENGE: SECURING ONE
                  OF THE WORLD'S MOST DANGEROUS AREAS

=======================================================================


                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON NEAR EASTERN AND
                    SOUTH AND CENTRAL ASIAN AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 20, 2008

                               __________

       Printed for the use of the Committee on Foreign Relations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html


                   U.S. GOVERNMENT PRINTING OFFICE
48-003 PDF                  WASHINGTON : 2009
----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, 
Washington, DC 20402-0001


                COMMITTEE ON FOREIGN RELATIONS          

           JOSEPH R. BIDEN, Jr., Delaware, Chairman          
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
JOHN F. KERRY, Massachusetts         CHUCK HAGEL, Nebraska
RUSSELL D. FEINGOLD, Wisconsin       NORM COLEMAN, Minnesota
BARBARA BOXER, California            BOB CORKER, Tennessee
BILL NELSON, Florida                 GEORGE V. VOINOVICH, Ohio
BARACK OBAMA, Illinois               LISA MURKOWSKI, Alaska
ROBERT MENENDEZ, New Jersey          JIM DeMINT, South Carolina
BENJAMIN L. CARDIN, Maryland         JOHNNY ISAKSON, Georgia
ROBERT P. CASEY, Jr., Pennsylvania   DAVID VITTER, Louisiana
JIM WEBB, Virginia                   JOHN BARRASSO, Wyoming
              Antony J. Blinken, Staff Director          
       Kenneth A. Myers, Jr., Republican Staff Director          

                         ------------          

               SUBCOMMITTEE ON NEAR EASTERN AND          
               SOUTH AND CENTRAL ASIAN AFFAIRS          

            JOHN F. KERRY, Massachusetts, Chairman          

CHRISTOPHER J. DODD, Connecticut     NORM COLEMAN, Minnesota
RUSSELL D. FEINGOLD, Wisconsin       CHUCK HAGEL, Nebraska
BILL NELSON, Florida                 GEORGE V. VOINOVICH, Ohio
BENJAMIN L. CARDIN, Maryland         JOHN BARRASSO, Wyoming

                             (ii)          


                            C O N T E N T S

                              ----------                              
                                                                   Page

Coleman, Hon. Norm, U.S. Senator From Minnesota..................     5


Dodaro, Gene, Acting Comptroller General, Government 
  Accountability Office, Washington, DC..........................    33

      Prepared statement.........................................    34


Kerry, Hon. John F., U.S. Senator From Massachusetts.............     1

      Prepared statement.........................................     3


Negroponte, Hon. John D., Deputy Secretary of State, Department 
  of State, Washington, DC.......................................     6

      Prepared statement.........................................     8


                                 (iii)




    PAKISTAN'S FEDERALLY ADMINISTERED TRIBAL AREAS (FATA) CHALLENGE:


                      SECURING ONE OF THE WORLD'S 
                          MOST DANGEROUS AREAS

                              ----------                              


                         TUESDAY, MAY 20, 2008

                           U.S. Senate,    
           Subcommittee on Near Eastern and
                    South and Central Asian Affairs
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:58 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. John F. 
Kerry, chairman of the subcommittee, presiding.
    Present: Senators Kerry, Feingold, Bill Nelson, Menendez, 
Casey, Lugar, Coleman, Isakson, and Barrasso.

           OPENING STATEMENT OF HON. JOHN F. KERRY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Kerry. This hearing of the Foreign Relations 
Committee will come to order. And I apologize to my colleagues, 
as well as to the Secretary, for the delay, a combination both 
of the vote and the difficult news that we've all heard.
    I want to thank the Secretary for coming before us today to 
talk with us about his strategy for dealing with what many of 
us believe is the most pressing national security issue facing 
the country today, and that is the center of jihadism, of 
radical religious extremism that emanates from the Federally 
Administered Tribal Areas of Pakistan, the lawless region along 
the border with Afghanistan. I don't think there's any member 
of this committee, or anyone who has thought about foreign 
policy, who doesn't have serious questions about the depth of 
this menace.
    The Director of National Intelligence, Michael McConnell, 
stated, in testimony before Congress in February, that al-Qaeda 
has, ``retained or regenerated key elements of its capability, 
including top leadership, operational mid-level lieutenants, 
and de facto safe haven in Pakistan's border area with 
Afghanistan.'' The DNI's 2008 Annual Threat Assessment 
concluded, ``Al-Qaeda is improving the last key aspect of its 
ability to attack the U.S.: The identification, training, and 
positioning of operatives for an attack on the homeland. We 
assess that al-Qaeda's homeland plotting is likely to continue 
to focus on prominent political, economic, and infrastructure 
targets designed to produce mass casualties, visually dramatic 
destruction, significant economic aftershocks, and/or fear 
among the population.'' This is our intelligence assessments.
    So, we ask you to think about that. According to our best 
intelligence estimates, al-Qaeda is currently working on the 
final aspects of a plan to launch a devastating attack on the 
homeland from safe haven in Pakistan's tribal areas.
    So, while we have been distracted and bogged down in Iraq, 
the more defined front line in the war on al-Qaeda has remained 
where many of us felt it has always been, which is along the 
Afghanistan-Pakistan border. In fact, it seems as if we've come 
full circle. Then, CIA Director George Tenet told the 9/11 
Commission that in the summer of 2001, ``the system was 
blinking red.'' Now, 7 years later, our Nation's chief 
intelligence agency is once again telling us that the system is 
blinking red. We obviously need to do everything in our power 
to make certain that history doesn't repeat itself, and that is 
why many were concerned by the GAO report in April entitled, 
``The United States Lacks Comprehensive Plan to Destroy the 
Terrorist Threat and Close the Safe Haven in Pakistan's 
Federally Administered Tribal Areas.''
    I know that Secretary Negroponte doesn't agree with the 
conclusion of that report, which is part of the purpose of 
having a hearing like this, and all of us look forward to 
hearing him explain the current comprehensive strategy and how 
it can be effective. And then we'll have an opportunity to hear 
from Gene Dodaro, the Acting Comptroller General of the GAO, 
and we look forward to hearing his response.
    I think there's one thing that all of us can agree on. We 
need a comprehensive approach to the FATA, that includes 
military, political, diplomatic, intelligence, developmental 
and economic power. We have read the reports about military 
operations, including Predator attacks on high-value targets, 
when adequate intelligence is available. And while I strongly 
believe we must protect our interests in this way, that 
approach is not, by itself, a long-term solution to the entire 
problem.
    We're working on at least some of the other elements of a 
comprehensive strategy. This includes creation of 
Reconstruction Opportunity Zones and a 5-year, $750 million 
plan for bringing education, development, and economic 
opportunity to the FATA, although concerns remain about how 
this money will actually be distributed and accounted for.
    We've also redoubled efforts to assist the Pakistani's with 
restraining their army to secure the border and conduct 
counterinsurgency operations and with strengthening the 
Frontier Corps, drawn from local tribes, that will, in theory 
at least, face less resistance than the national army. Also, 
Mr. Secretary, I strongly support making a long-term commitment 
to dramatically increasingly U.S. nonmilitary assistance, 
because directly supporting the Pakistani people is the key to 
securing our long-term interests, and theirs. We are concerned, 
however, that it'll take several years for these efforts to 
counter the threat, and many people are concerned that time is 
not on our side.
    Even as we discuss the United States strategy, we need to 
recognize that Pakistan is a sovereign nation with a 
democratically elected leadership. It obviously deserves our 
support, and it has it. This new government is understandably 
determined to break with what most Pakistani's view as the 
failed policies of President Musharraf. As the committee 
members know, a few months ago Senators Hagel and Biden, the 
chairman of the committee, and I were in Pakistan to observe 
the election, and it was clear from our meetings with the new 
Pakistani leaders that they have a very different understanding 
of the nature of the terrorist threat in the FATA. If Chairman 
Biden were here, he would share that view with us, as would 
Senator Hagel.
    It was telling that, in 2 days of meetings, Osama bin 
Laden's name was hardly ever mentioned. Instead, the Pakistanis 
are focused on confronting a growing domestic Pashtun 
insurgency led by Baitullah Mehsud. That's why it's not 
surprising that the Pakistani Government is reportedly on the 
verge of striking yet another, ``peace accord'' with Mehsud 
that will call for the withdrawal of Pakistani military forces 
from the tribal regions in return for an agreement by the 
militants to cease attacks within Pakistan.
    It's clear that the current strategy hasn't succeeded. 
There may be some positive elements to the new approach, 
including a greater emphasis on economic and social development 
and increased political integration of the tribal areas, but we 
say ``maybe,'' fully remembering what happened in the failed 
deal that President Musharraf made in South Waziristan in 2006, 
which actually resulted in a dramatic increase in cross-border 
attacks into Afghanistan and the reestablishment of al-Qaeda 
training camps.
    So, I think many of us here have a certain skepticism about 
this, and we need to explore that today.
    Finally, many of us are particularly concerned that the 
current deal, as reported, at least, in the New York Times, 
does not include any prohibition on the use of these areas as a 
base for launching attacks into Afghanistan. In fact, with 
counterinsurgency operations in the FATA curtailed during 
negotiations, cross-border attacks have already more than 
doubled, compared with the same period last year.
    Our efforts in Pakistan and Afghanistan are deeply 
intertwined. If there was any lesson I drew from my latest 
visit, which is one of several I've made, it is the degree to 
which what we do in Pakistan will affect our ability and 
capacity in Afghanistan, and what we do in Afghanistan will 
affect our capacities in Pakistan. They are closely 
intertwined.
    I know Secretary Negroponte shares this concern. Last week, 
you said, Mr. Secretary, that it was unacceptable for 
extremists to use the FATA as a base to launch attacks, and you 
also said, ``We will not be satisfied until the violent 
extremism emanating from the FATA is brought under control.'' 
So, we look forward, today, to exploring that with you, and 
I'll just submit the rest of this statement to the record as if 
read in full.


    [The prepared statement of Senator Kerry follows:]

               Prepared Statement of Hon. John F. Kerry, 
                    U.S. Senator From Massachusetts

    I want to thank Deputy Secretary Negroponte for coming before the 
committee today to discuss our strategy for dealing with what I believe 
is the most pressing national security issue facing America today: The 
terrorist threat from Pakistan's Federally Administered Tribal Areas 
(FATA), the lawless region along the border with Afghanistan.
    Nobody here should have any question whatsoever about the 
seriousness of this threat. The Director of National Intelligence, 
Michael McConnell, stated in testimony before Congress in February that 
al-Qaeda ``has retained or regenerated key elements of its capability, 
including top leadership, operational mid-level lieutenants, and de 
facto safe haven in Pakistan's border area with Afghanistan.''
    The DNI's 2008 Annual Threat Assessment concluded, and I quote: 
``Al-Qaeda is improving the last key aspect of its ability to attack 
the U.S.: The identification, training, and positioning of operatives 
for an attack in the Homeland . . . We assess that al-Qaeda's Homeland 
plotting is likely to continue to focus on prominent political, 
economic, and infrastructure targets designed to produce mass 
casualties, visually dramatic destruction, significant economic 
aftershocks, and/or fear among the population.''
    Think about that for a second: According to our best intelligence 
estimates,
al-Qaeda is currently working on the final aspects of a plan to launch 
a devastating attack on our homeland from a safe haven in Pakistan's 
tribal areas.
    So while we have been distracted and bogged down in Iraq, the real 
front line in the war on al-Qaeda has remained right where it has 
always been, along the Afghanistan-Pakistan border. In fact, it seems 
like we've come full circle. George Tenet told the 9/11 Commission that 
in the summer of 2001 ``the system was blinking red.'' Now, 7 years 
later, our Nation's chief intelligence agency is once again telling us 
that the system is blinking red.
    We obviously need to do everything in our power to make sure 
history does not repeat itself. That's why many of us were so concerned 
by the April GAO report entitled: ``The United States Lacks 
Comprehensive Plan to Destroy the Terrorist Threat and Close the Safe 
Haven in Pakistan's Federally Administered Tribal Areas.'' I'm sure 
that Deputy Secretary Negroponte does not agree with the conclusions of 
that report, and we all look forward to hearing him explain what our 
current comprehensive strategy really is. We will then have an 
opportunity to hear from Gene Dodaro, the Acting Comptroller General of 
the GAO, and we all look forward to hearing his response.
    There's one thing we can all agree on: We need a comprehensive 
approach to the FATA that includes military, political, diplomatic, 
intelligence, and economic power. We have read the reports about 
military operations, including predator attacks on high value targets 
when adequate intelligence is available--and while I strongly believe 
we must protect our interests in this way, that approach is not, by 
itself, a long-term solution to the problem.
    We are working on at least some of the other elements of a 
comprehensive strategy. This includes creation of Reconstruction 
Opportunity Zones, and a 5-year, $750 million plan for bringing 
education, development, and economic opportunity to the FATA--although 
concerns remain about how this money will actually be distributed and 
accounted for. We have also redoubled efforts to assist the Pakistanis 
with retraining their army to secure the border and conduct 
counterinsurgency operations, and with strengthening a Frontier Corps 
drawn from local tribes that will, in theory at least, face less 
resistance than the national army.
    I also strongly support making a long-term commitment to 
dramatically increasing U.S. nonmilitary assistance, because directly 
supporting the Pakistani people is key to securing our long-term 
interests--and theirs. However, I'm concerned that it will take several 
years for these efforts to counter the threat--and time is not on our 
side.
    Even as we discuss U.S. strategy, we must recognize that Pakistan 
is a sovereign nation, with democratically elected leadership that 
deserves our support. This new government is understandably determined 
to break with what most Pakistanis view as the failed policies of 
President Musharraf.
    In fact, I was in Pakistan with Senators Biden and Hagel for the 
election in February, and it was clear from our meetings with the new 
Pakistani leaders that they have a very different understanding of the 
nature of the terrorist threat in the FATA. It was telling that in 2 
days of meetings, Osama bin Laden's name was hardly ever mentioned. 
Instead, the Pakistanis are focused on confronting a growing domestic 
Pashtun insurgency led by Baitullah Mehsud.
    That's why it's not surprising that the Pakistani Government is 
reportedly on the verge of striking a ``peace accord'' with Mehsud that 
will call for the withdrawal of Pakistani military forces from the 
tribal regions in return for an agreement by the militants to cease 
attacks within Pakistan. It's clear the current strategy has not 
succeeded, and there are certainly positive elements to the new 
approach, including a greater emphasis on economic and social 
development and increased political integration for the tribal areas.
    At the same time, we all remember the failed deal that President 
Musharraf made in South Waziristan in 2006, which resulted in a 
dramatic increase in cross-border attacks into Afghanistan and the 
reestablishment of al-Qaeda training camps. I was actually in Pakistan 
at the time, and it was obvious even then that the deal was not going 
to work.
    It is not clear how this agreement is going to be any better for 
U.S. security interests. Many of us are particularly concerned that the 
current deal, as reported in the New York Times, does not include any 
prohibition on the use of these areas as a base for launching attacks 
into Afghanistan. In fact, with counterinsurgency operations in the 
FATA curtailed during negotiations, cross-border attacks have already 
more than doubled compared with the same period last year. Our efforts 
in Pakistan and Afghanistan are deeply intertwined, and we cannot 
succeed in Afghanistan if there is a safe haven for insurgents on the 
other side of the border.
    I know Deputy Secretary Negroponte shares this concern: You said 
last week that it was ``unacceptable'' for extremists to use the FATA 
as a base to launch attacks, and that ``we will not be satisfied until 
the violent extremism emanating from the FATA is brought under 
control.'' We will be very interested to hear how the administration 
plans to accomplish that.
    One point of possible leverage is the Coalition Support Funds we 
provide Pakistan as reimbursement for their counterterrorism efforts. 
We have given over $5.5 billion in CSF over the past 6 years, and many 
of us are concerned that there has not been adequate accountability for 
these expenditures--in fact, a recent interim report by the GAO found 
that: ``After reimbursement to Pakistan for prior expenditures there is 
no requirement for further oversight of these funds by the U.S. 
Government.'' Clearly, the taxpayers have a right to expect more in 
return for the billions in aid we're providing Pakistan's Government 
for fighting terrorism.
    We also understand the importance of balancing our national 
security interests with the need to support and respect Pakistan's new 
government. We have already seen evidence of strains within the 
governing coalition as they grapple with stopping the spread of Islamic 
extremism, reinstating judges combating inflation, and bringing food, 
power, and economic opportunity to millions of people. Ensuring the 
survival of democracy in Pakistan is absolutely essential, and if the 
new government is seen as a puppet of the United States--as President 
Musharraf was--it may well lose the support of the people. As we forge 
this new relationship, we must articulate that we understand Pakistan's 
many challenges and want to work together to advance our mutual 
interests.
    With that, we will now turn to Senator Coleman for his opening 
statement. When he is finished, Senator Menendez, who was among the 
Senators who requested the GAO report, will make a brief statement. 
When he is finished, Deputy Secretary Negroponte will make his opening 
remarks. We will then have a round of questions from the subcommittee's 
members, which I request that they limit to 8 minutes.
    Thank you again for coming here today.

    Senator Kerry. Mr.--Senator Coleman.

                STATEMENT OF HON. NORM COLEMAN, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Coleman. Thank you, Mr. Chairman. And I thank you 
for calling this important hearing.
    There certainly is some difference of opinion amongst us on 
this committee as to whether the battles that are being fought 
in Iraq are diverting our attention from other things that are 
done, vis-a-vis al-Qaeda. I take al-Qaeda at its word that Iraq 
has been a central battleground for them in their efforts to 
establish their caliphate in the Middle East. However, where 
there is absolutely no disagreement, Mr. Chairman, is the 
importance of having a comprehensive plan to address the 
terrorist threat in the Federally Administered Tribal Areas.
    The analysis provided by our intelligence community on the 
activity of terrorists in the FATA region is alarming, as is 
the recent observed trend in all of Pakistan of increasing 
Islamic militancy.
    The relationship between the United States and Pakistan is 
a complex one, and the tremendous stakes involved in this 
relationship obligate us--require us to have a thoughtful 
strategy to engage Pakistan and maximize the impact of our 
assistance to that country. We must ensure that the Federally 
Administered Tribal Areas do not serve as a safe haven for 
terrorists. We must ensure that Pakistanis move toward 
democracy and stability to defuse the sources of extremism, 
whose effects are felt throughout the region. There is no 
disagreement with your assessment of the interrelationship 
between Afghanistan and Pakistan and what happens there.
    But, it's clear, from the GAO report, their assessment is 
that the assistance that we have provided hasn't achieved the 
desired outcome in the Federally Administered Tribal Areas; 
they continue to serve as a base for al-Qaeda and other 
terrorist groups. And efforts to address that challenge, beyond 
the military scope, seem to have lagged.
    So, I look forward to the Secretary's testimony. I join 
you--with you in stressing the critical importance of having a 
comprehensive plan, the right plan, to deal with what is 
clearly a threat to this country.
    Senator Kerry. Well, I thank you, Senator Coleman.
    And normally we don't run around the entire dais, but we do 
have the ranking member here; I just wondered, Senator Lugar, 
if you had any comment you wanted to make.
    Senator Lugar. No, Mr. Chairman.
    Senator Kerry. Appreciate it.
    Mr. Secretary, thanks so much for taking time to be with 
us. We know you're busy, and we appreciate your presence. We 
look forward to your testimony.

   STATEMENT OF HON. JOHN D. NEGROPONTE, DEPUTY SECRETARY OF 
           STATE, DEPARTMENT OF STATE, WASHINGTON, DC

    Ambassador Negroponte. Thank you, Mr. Chairman, members of 
the committee. Thank you for the opportunity to appear before 
you today.
    I have submitted written testimony, so I will keep my 
remarks brief, and I look forward to getting into a discussion 
and an exchange on a number of the issues that you mentioned in 
your opening statement, sir.
    With the successful transition to elected Government in 
Pakistan, we have an historic opportunity to help the people of 
Pakistan build a base of democratic stability from which to 
counter violent extremism and fight international terrorism. 
This is vital to Pakistani interests, to United States 
interests, and to the interests of the international community 
at large.
    Pakistan, after all, is the world's second-most populous 
Muslim state, it has nuclear weapons, and it is on the front 
lines of the battle against international terrorism. These 
facts prompt me to offer three overarching thoughts.
    First, the terrorist and extremist problem in Pakistan and 
the terrorist and extremist problem in Afghanistan are, just as 
you were saying, Mr. Chairman, inextricably intertwined. What 
happens on the Afghan side of the border has a direct impact on 
Pakistan, just as what happens on the Pakistani side affects 
Afghanistan. We, therefore, must find ways to more effectively 
coordinate and synchronize operations by both nations, and 
thereby reduce the operating space where our common enemies 
function.
    Second, we must design and execute our strategy to assist 
Pakistan in such a way as to enlist other nations, including, 
but going beyond, Pakistan's immediate neighbors, in helping 
the Pakistanis and the Afghans rid their national territories 
of terrorists and violent extremists.
    And third, the United States-Pakistan relationship runs 
much deeper than our mutual counterterrorism priorities. While 
the battlefield for the war against terrorism will be fought in 
the border regions, our programs to work with the people and 
Government of Pakistan will be critical to our success in these 
areas. We are committed to building a broader, longer term 
relationship with Pakistan.
    Given the gravity of the dangers Pakistan confronts, a 
broad, but integrated, commitment of assistance on the part of 
the United States is essential--development assistance, 
security assistance, and diplomatic assistance; and nowhere are 
common United States-Pakistan interests more in evidence than 
in the Federally Administered Tribal Areas, which have some of 
the worst social and economic conditions in the country. We, 
therefore, welcome the fact that the new government in Pakistan 
wants to implement a comprehensive strategy to better integrate 
the Federally Administered Tribal Areas into Pakistan's economy 
and body politic. Government leaders recognize that they cannot 
rid Pakistan's territory of terrorists and violent extremists 
by military means alone; they must also create an environment 
inhospitable to terrorism and extremism.
    For our part, the administration will seek $750 million in 
support of infrastructure development, social welfare, and 
capacity-building initiatives in the tribal areas over the next 
5 years, but we already have a strategy and programs in place 
to serve as a foundation for these additional initiatives. The 
United States Agency for International Development's economic 
development programs in the tribal areas currently comprises 16 
agency projects; that is to say, in the different tribal 
agencies. This month, for example, USAID will refurbish several 
hospitals, delivery and surgical facilities, will train 
maternal health and other medical professionals, and will 
continue working with a local official to restore police 
authority to a central market. These are just a few examples of 
the activities we are pursuing to improve lives and enhance 
governance in the tribal areas.
    Congressional support for the $60 million request for 
economic support funds for Pakistan in fiscal year 2008 
supplemental will allow the agency to continue advancing these 
goals.
    We also believe Reconstruction Opportunity Zones can play a 
major role in development of this remote part of Pakistan. 
Again, we hope Congress will soon pass legislation to make 
Reconstruction Opportunity Zones a reality.
    Of course, establishing a secure environment is a 
prerequisite for fostering economic and social development. The 
United States principal contribution to establishing security 
in the FATA is the Security Development Plan, a 5-year, 
multifaceted program to enhance Pakistan's ability to secure 
its border with Afghanistan. In fiscal year 2009, the 
administration is seeking at least $100 million in foreign 
military financing for this plan in the bridge supplemental 
request.
    To site two important examples of our security assistance, 
United States training and equipment has allowed the special 
services group of the Pakistan Army to engage and prevail over 
enemy forces. We also are enhancing coordination among the 
Afghan, Pakistan, United States, and NATO forces in the Afghan-
Pakistan border region. On March 29, we and our partners 
inaugurated the first of several border coordination centers at 
Torkham, Afghanistan. The centers will make it possible for 
Pakistani, Afghan, and International Security Assistance Forces 
representatives to more effectively counter efforts by our 
common enemies to skirt both sides of the rugged border with 
impunity.
    We worked hard to help Pakistan establish conditions 
conducive to free, fair, and transparent elections for the 
February 18 parliamentary elections. We are now working equally 
hard with Pakistan's leaders, including the moderate Awami 
National Party, which won elections in the Northwest Frontier 
Province, to explore how we can help the Government of Pakistan 
extend the authority of the Pakistani state to the tribal 
areas.
    We're encouraged by the electoral mandate that these 
parties possess. Our Embassy meets with representatives from 
all Pakistani political parties that have a stake in the new 
government.
    In closing, I want to thank Senators Biden and Lugar for 
their leadership in helping the United States help Pakistan, 
and you, Mr. Chairman, for your strong interest in that 
country, as well. Chairman Biden has issued a far-reaching 
proposal on restructuring our assistance to Pakistan which we 
are studying closely. We hope that, together, Congress and the 
administration can establish a new framework for political, 
economic, and security assistance to Pakistan's democracy, one 
that enables the newly elected Pakistani Government to bring 
its remote tribal areas into the Pakistani mainstream and 
render them permanently inhospitable to terrorists and violent 
extremists.
    Thank you very much.


    [The prepared statement of Ambassador Negroponte follows:]

  Prepared Statement of Hon. John D. Negroponte, Deputy Secretary of 
               State, Department of State, Washington, DC

    Mr. Chairman, members of the committee, with the successful 
transition to elected government in Pakistan, we have a historic 
opportunity to help the people of Pakistan build a base of democratic 
stability from which to counter violent extremism and fight 
international terrorism. This is vital to Pakistani interests, U.S. 
interests, and international interests, which are not limited to 
Afghanistan and Pakistan's other immediate neighbors. Pakistan is the 
world's second most populous Muslim state. It has nuclear weapons, and 
it is on the front lines of the battle against international terrorism, 
the most serious security threat of the 21st century.
    The United States is determined to help Pakistan meet the 
challenges it faces. We believe that the newly elected Government of 
Pakistan welcomes our support with a determination as strong as our 
own. But before I discuss U.S. strategy
vis-a-vis Pakistan, and the Federally Administered Tribal Areas (FATA) 
in particular, I want to make three overarching points.
    First, the terrorist problem in Pakistan and the terrorist problem 
in Afghanistan are inextricably intertwined. Today I will focus on 
Pakistan, but I ask that you keep in mind the fact that we must have a 
fully coordinated strategy that addresses the ground truth on both 
sides of the Pakistani-Afghan border. What happens on the Afghan side 
of the border has a direct impact on Pakistan just as what happens on 
the Pakistani side affects Afghanistan. Terrorists and violent 
extremists continue to exploit Pakistan's rugged tribal areas as safe 
havens and cross the border to attack Afghan and coalition forces in 
Afghanistan. We, therefore, must find ways to more effectively 
coordinate and synchronize operations by both nations, and thereby 
reduce the operating space where our common enemies function.
    Second, we must design and execute our strategy to assist Pakistan 
in such a way as to persuade other nations--many other nations--to take 
the problems the Pakistanis confront as seriously as we do. Regional, 
Middle Eastern, European, African, and Asian interests are just as 
threatened by international terrorism and violent extremism as our own 
interests here in the Western Hemisphere. So we must have a strategy of 
broad diplomatic engagement in support of specific programs resourced 
by the United States. In short, we see U.S. objectives in Pakistan and 
Afghanistan border regions as one single theater of operations that 
will require all of our skills--diplomatic, military, and 
developmental.
    Third, the United States-Pakistan relationship runs much deeper 
than our mutual counterterrorism priorities. While the battlefield for 
the war against terrorism will be fought in the border regions, our 
programs to work with the people and Government of Pakistan will be 
critical to our success in these areas. We are committed to building a 
broader, long-term relationship with Pakistan.
    Given the gravity of the dangers Pakistan confronts on a day-to-day 
basis, a broad but integrated commitment of assistance on the part of 
the United States is essential. This is true nationwide, as well as 
with respect to the tribal areas on which we focus today. Nationwide, 
our strategy is to help the newly elected Government of Pakistan 
strengthen democratic institutions, provide children with a modern 
education, reform economic structures, provide the people with food and 
energy, and transform the military into a more capable security force 
for the nation.
    And again, let me emphasize that our commitment to Pakistan applies 
to the tribal and frontier areas as well as the nation as a whole. Our 
goal is to help integrate these areas into the national and world 
economy, to help the new government bring the people there into the 
life of their own country, to help provide a modern education that 
draws children away from madaris, and to help the people of the area 
provide their own security and resist the pressures of extremists.
    Nowhere are common United States-Pakistan interests more in 
evidence than in the Federally Administered Tribal Areas. But to 
address those interests, we first must help the Government of Pakistan 
exert its authority there. That is crucial to ameliorating the 
governance, economic, health, education, and security problems faced by 
the FATA's inhabitants on a daily basis.
                     government of pakistan efforts
     We welcome the fact that the new Government in Pakistan wants to 
implement a comprehensive strategy to better integrate the Federally 
Administered Tribal Areas into Pakistan's economy and body politic. 
Government and political leaders more generally recognize that they 
cannot rid Pakistan's territory of violent extremists by military means 
alone--they also must create an environment inhospitable to terrorism 
and extremism. The Government's objective is to persuade the people 
living in this traditionally autonomous region that their interest lies 
in supporting the government's efforts to bring development to the 
area. By thus improving the relationship between the region and the 
rest of Pakistan, the government hopes to weaken the sway of terrorists 
and extremists, demonstrating to the population that they will benefit 
by supporting the government and denying terrorists safe haven.
     The Government of Pakistan's comprehensive ``Frontier Strategy'' 
emphasizes economic and social development, while strengthening 
effective governance. As part of its Frontier Strategy and after 
consulting with all interested parties including the public, the 
government also has developed a 9-year, $2 billion Sustainable 
Development Plan for the tribal areas. The Government's plan addresses 
the basic unmet needs that underlie the existing social and economic 
problems and outlines measures to improve services, upgrade 
infrastructure, increase government capacity, promote the sustainable 
use of natural resources, and bolster activity in the trade, commerce, 
and industrial sectors. This will be a demanding effort. Pakistan's 
tribal areas have some of the worst social and economic conditions in 
the world. In some areas, the female literacy rate is as low as 3 
percent. There is little access to safe drinking water or to even 
rudimentary health care. The system of public education is largely 
nonexistent.
    But the Government of Pakistan's decision to partner with the 
United States, the United Kingdom, and other international partners, 
such as Japan and Australia, in this effort demonstrates Pakistan's 
commitment to deny terrorists and violent extremists the ability to 
exploit its territory. We applaud the fact that in 2007, the government 
made concerted efforts to reach out to its partners in various 
international fora, presenting its plan to members of the World Bank, 
the Group of Eight, the European Union, and various bilateral donors to 
coordinate political and donor support. This is consonant with the 
emphasis we place on broad international engagement with Pakistan. For 
our part, the United States has made a 5-year $750 million commitment 
beginning in FY 2007 in support of infrastructure development, maternal 
and child health, education and capacity-building initiatives in the 
tribal areas and border regions of Pakistan. Additional resources are 
requested in the FY 2009 emergency supplemental to support the Security 
Development Plan.
      u.s. agency for international development frontier strategy
     The U.S. Agency for International Development's economic 
development programs in the tribal areas and border regions of Pakistan 
target areas that have few jobs, low literacy, little hope and are 
vulnerable to militant infiltration. Just as our earthquake assistance 
to Pakistan in 2005 and 2006 had a profoundly positive impact on the 
people of Pakistan--generating good will that has lasted to this very 
day--we believe our support for developing the tribal areas will bring 
stability and prosperity.
     USAID's program is fully operational in the tribal areas, with 16 
Agency projects currently operating there. This month, for example, 
USAID will refurbish several hospitals' delivery and surgical 
facilities, will train maternal health and other medical professionals, 
and will continue working with a local official to restore police 
authority to a central market. Other projects initiated in April, 
developed through a consultative approach that aims to build confidence 
and trust between the Government of Pakistan and tribal communities by 
identifying and implementing small community improvement opportunities, 
were in the health, drinking water, girls' education, government 
capacity-building, and media sectors. Pakistani Government partners 
stated in April that the competitive and open procurement process 
established by USAID in implementing these small projects has increased 
their credibility in the communities in which they work. These are just 
a few examples of the activities we are pursuing to improve lives and 
enhance governance in the tribal areas, Northwest Frontier Province, 
and Balochistan. Congressional support for the $60 million Economic 
Support Fund request for Pakistan in the fiscal year 2008 supplemental 
will allow the Agency to continue advancing these goals.
     We also believe Reconstruction Opportunity Zones can play a major 
role in promoting long-term economic development and stability of this 
remote part of Pakistan. We believe ROZs will provide the crucial 
economic component that complements our military and political 
strategies. We were very happy to see introduction of ROZ legislation 
by Senator Cantwell and her cosponsors, and we hope that Congress will 
soon pass legislation to make ROZs a reality. In addition, our security 
and development programs in the tribal areas are critical to achieving 
our highest objectives in the war on terror. These programs will boost 
sustainable, private-sector-led economic development and provide long-
term, legitimate livelihoods for citizens in impoverished areas at the 
epicenter of the war on terror and drugs. Just as important, these 
efforts are essential to maintaining forward momentum in building a 
long-term, broad-based relationship with the Pakistani people.
                       security development plan
     Providing a secure environment that fosters economic and social 
development is critical. As the committee knows, in March 2006, 
President Musharraf asked President Bush for U.S. assistance in 
developing and funding a comprehensive strategy to deny terrorists and 
violent extremists the ability to exploit the undergoverned Federally 
Administered Tribal Areas which they have exploited as a hideout and 
safe haven. The United States agreed to provide support.
     Further, the Government of Pakistan has launched a program to 
increase the size of its Frontier Corps, a Pashtun-based paramilitary 
force raised in the border region. Members of the Frontier Corps have 
unique advantages operating in the tribal areas due to their linguistic 
and ethnic ties. The United States is supporting this expansion and is 
helping to train and equip the Frontier Corps to enhance Pakistan's 
ability to secure its border and provide security to the indigenous 
population.
     The United States Government's principal contribution to 
establishing security in the FATA and the western border region is the 
Security Development Plan, a 6-year multifaceted program to enhance 
Pakistan's ability to secure its border with Afghanistan. The plan was 
codeveloped by our Embassy in Islamabad and U.S. Central Command, and 
fully coordinated with the Government of Pakistan. In fiscal years 2007 
to 2008, the Department of Defense provided over $200 million. In 
fiscal year 2009, the administration is seeking at least $100 million 
in Foreign Military Financing for the plan in the bridge supplemental 
request. Congressional support for the supplemental request will be 
instrumental in the U.S. Government's ability to implement the Security 
Development Plan.
     We are working hard to ensure that Pakistan has the necessary will 
and tools to conduct aggressive and sustained counterterrorism and 
counterinsurgency operations in the years to come. To cite an important 
example, the Department of Defense will equip and train special 
operations units of the Pakistan Army. Training will focus on the 
Special Services Group and its helicopter mobility unit, the 21st Quick 
Reaction Squadron, to enhance its ability to execute combat missions in 
the border region. Our programs are providing those forces with the 
skills needed to permanently prevent militants and terrorists from 
exploiting Pakistani territory as a staging ground for attacks in 
Afghanistan, Pakistan, and beyond.
     We are also enhancing coordination among Afghan, Pakistani, United 
States, and NATO forces in the Afghanistan/Pakistani border region. 
Again, this effort focuses on the full internationalization of the 
response to a problem that threatens the world community at large. On 
March 29, we and our partners inaugurated the first of several Border 
Coordination Centers at Torkham, Afghanistan. The centers will make it 
possible for Pakistani, Afghan, and International Security Assistance 
Force representatives to more effectively coordinate to counter efforts 
by our common enemies from using their superior knowledge of the 
terrain to skirt both sides of the rugged border to avoid engagement.
                    supporting the pakistani people
     As the committee knows first-hand, we worked hard to help Pakistan 
establish conditions conducive to free, fair, and transparent elections 
for the February 18 parliamentary elections. We are now working equally 
hard with Pakistan's leaders, including the moderate Awami National 
Party which won elections in the Northwest Frontier Province, to 
explore how we can help the new Government of Pakistan extend the 
authority of the Pakistani state to the tribal areas. We are encouraged 
by the electoral mandate that these parties possess. Our Embassy 
continues to meet with representatives from all Pakistani political 
parties that have a stake in the new government.
     As we support Pakistan's democratic transition, we continue to 
cooperate closely with Pakistan's Government and military to combat 
violent extremism. The media has reported that the Government of 
Pakistan has been exploring peace agreements with certain groups in the 
tribal areas. Given past failures, we have raised our concerns about 
these negotiations with Pakistan's leaders. It is our belief that a 
moderate government with a democratic mandate has been and will 
continue to be a good partner in this extremely difficult effort.
     In conclusion, Mr. Chairman and members of the committee, 
Pakistan's tribal areas are of immense importance to the security of 
Pakistan and the world. That is why we must utilize a multifaceted 
approach to help the newly elected Pakistani Government and the 
Pakistani people bring these remote areas into the Pakistani mainstream 
and render them permanently inhospitable to terrorists and violent 
extremists.

    Senator Kerry. Well, thank you, Mr. Secretary. That's 
helpful, and we appreciate it.
    We'll start with 7-minute rounds.
    No. 2, that you just offered as one of the steps, is to 
enlist other nations to rid the area of these elements. Can you 
be more specific about precisely what you envision and how that 
would happen?
    Ambassador Negroponte. Well, principally, of course, in 
terms of donor support for both Afghanistan and Pakistan, 
there's going to be a donor conference on Afghanistan very 
shortly, in Stockholm, Sweden, I believe. And with regard to 
Pakistan, we've encouraged a number of countries to take an 
interest in supporting them economically, and even specifically 
in the FATA areas. That's been one of the subjects that I 
discuss quite regularly with my Japanese counterparts, for 
example, and they are being responsive. So, it was that kind of 
assistance we were talking about.
    Senator Kerry. So, you're principally talking about the 
economic construction component. But that can't be within the 
FATA, as of now. That's within the Punjab and other areas.
    Ambassador Negroponte. Well, it is also with regard to the 
FATA, just the way we are looking to----
    Senator Kerry. Well, how is that even potentially 
controllable in an area where the government has no control?
    Ambassador Negroponte. It's not easy, but what we----
    Senator Kerry. How can it even be----
    Ambassador Negroponte [continuing]. We have----
    Senator Kerry [continuing]. Contemplated?
    Ambassador Negroponte. It does--it's already begun to 
happen. We have the first installments of the $150-million-a-
year moneys for the FATA, and what AID is doing is operating 
out of our Consulate General in Peshawar; but, working with 
NGOs and other contractors and with the assistance of the 
tribal authorities, the FATA authorities, we have begun to 
initiate some of these assistance projects.
    Senator Kerry. Is that a straight bilateral relationship 
between our folks and the FATA leaders, the tribal leaders, or 
is it through an intermediary?
    Ambassador Negroponte. Well, we work with the Northwest 
Frontier provincial authorities who oversee the FATA, and we 
work with NGOs, and it's sort of a team effort.
    Senator Kerry. To what degree does that suffice to address 
the alarm bells sounded by the intelligence community itself? 
Let me come back to the statement that DNI McConnell said, 
``Al-Qaeda is improving the last key aspect of its ability to 
attack the U.S.: The identification, training, and positioning 
of operatives for an attack on the homeland.'' This is the area 
where they're doing it. What, specifically, strategically--
besides the sort of specific targeted attack, by Predator or 
otherwise, on specialized information, how would you define the 
day-to-day ongoing effort to defuse that particular threat, as 
defined?
    Ambassador Negroponte. Right. Well, first of all, I'd be 
the first to acknowledge that more can be done. I wouldn't 
quarrel with that proposition.
    Senator Kerry. Is there more that could be done that you 
can talk about in this session?
    Ambassador Negroponte. I think yes. First of all, as you 
suggest or imply by your question, we do have cooperation at 
other levels, which I think would probably be better discussed 
in closed session, and perhaps with witnesses, in addition to 
myself, from other agencies of our government. But, in our 
proposals, we envisage training and bolstering the capabilities 
of the frontier corps, which operate in the Pakistan frontier 
area and the Pakistani army counterinsurgency units mentioned 
their special forces. They've got to start making that shift 
from being a more conventionally aligned military, that was 
basically confronting this singular threat that they felt 
existed from India, to being able to more flexibly cope with 
the situation in the FATA.
    The other point I would make is----
    Senator Kerry. May I interrupt you there for a second?
    Ambassador Negroponte. Sure.
    Senator Kerry. When I met with President Musharraf, about a 
year ago, he was singularly pessimistic about the ability of 
his own troops to be able to be successful. And that was after 
they had, sort of, walked back from their period of 
confrontation, because they were, frankly, getting kicked 
around up there. So, there's very little sense of control that 
he articulated to me, and I've seen nothing since then.
    Now this new initiative from the new government to 
conceivably negotiate, which leaves me feeling that this is 
going to be a very amorphous, open, uncontrolled and 
unaccountable area for the foreseeable future.
    Ambassador Negroponte. I don't think----
    Senator Kerry. I know it's not easy.
    Ambassador Negroponte. No, no.
    Senator Kerry [continuing]. I'm trying to get at----
    Ambassador Negroponte. No; I understand.
    Senator Kerry [continuing]. Sort of----
    Ambassador Negroponte. Yes.
    Senator Kerry [continuing]. You know, what are the 
possibilities----
    Ambassador Negroponte. Let me try.
    Senator Kerry [continuing]. Here.
    Ambassador Negroponte. It's a tough question. But, I 
think--nothing is ever quite as black or as white as it may 
seem. Example: The Pakistani Government has 120,000 troops 
between their frontier corps and their regular military, on the 
border area with Afghanistan. So, it's not as if they're 
without any presence whatsoever. And I think that that has had 
an influence on the situation.
    Senator Kerry. They're in a very limited mission, and 
they're there--I mean, there's great reluctance to engage with 
some of the people we'd like them to engage.
    Ambassador Negroponte. Second--and I wouldn't debate that--
the second point I would make is that, when we're talking about 
threats--and of course we're concerned about any threats that 
might emanate from the FATA area, because we do know, and I 
know from my previous position as Director of National 
Intelligence, that is where plotting against our homeland 
occurs on a regular basis. But, I would cite to you some 
successes in disrupting those plots. And those successes didn't 
come out of nowhere, they came as the result of some hard work 
by lots of people. But, I would refer you, for example, to the 
July 2006 plot, which was designed to have eight or nine 
airlines--transatlantic airlines coming from the United Kingdom 
to be blown up on the way to the United States. Well, that 
plotting activity was taking place in the FATA area, and the 
architects of that plot were captured.
    So, there is some good, ongoing work here. But, I certainly 
would agree with you that there's more to be done. And I think 
one of the areas is in the strengthening and improving the 
capacity of the Pakistani security forces to deal with this 
kind of unconventional threat.
    Senator Kerry. My time has expired.
    Senator Coleman.
    Senator Coleman. Thank you, Mr. Chairman.
    I want to talk a little bit about, first, our relationship 
with the new government. There's been the--the new civilian 
leaders have talked about renewed efforts to negotiate with 
both the tribal leaders as well as the militants. NATO 
spokesmen expressed concern about this, that truce negotiations 
in the Federally Administered Tribal Areas may be behind the 
significant increase in violent attacks in eastern Afghanistan 
in April and May. During your late-March visit, you made note 
of that, that irreconcilable elements cannot be dealt with 
through negotiation. The Foreign Minister indicates that the 
government doesn't intend to negotiate with terrorists, but 
does believe in political engagement.
    I have two questions for you. What's the difference between 
``political engagement'' and ``negotiation''? And, I guess, 
fundamentally, are Islamabad and Washington at odds when it 
comes to counterterrorism strategy in the region?
    Ambassador Negroponte. No; I don't--I can't speak for the 
Foreign Minister when he used those phrases. I think that he 
may be driving at a little bit of what I was talking about when 
I made the distinction between reconcilables and 
irreconcilables. I think those who are determined to carry out 
terrorist attacks against us and harm our way of life are not 
people we can or should negotiate with. There may be some 
others, not unlike some of the insurgents who were in the 
western part of Iraq, where some dialogue over time, might bear 
fruit. So, that's the kind of distinction I would carry around, 
in my own mind.
    Are we concerned about the possibility of negotiations 
between the government, or elements of the government, and 
these extremist groups up there? I think the answer would be, 
``yes.'' We saw such an arrangement entered into in 2005. It 
did--in the South Waziristan area--not produce satisfactory 
results, and the government itself felt compelled to withdraw 
from the agreement because of an increase in militant activity, 
not only in the FATA area, but in what the Pakistani's call the 
``settled areas.'' So, I would say that they need to be very 
cautious about proceeding with these kinds of discussions, and, 
if they're going to proceed with them, to be sure that they are 
getting the kind of results that they say they really want. 
They say they don't want to give free space to extremist 
elements who wish them harm or who want to cross--you know, 
engage in cross-border operations. But, I think this is 
something we're going to have to watch very carefully.
    Senator Coleman. Are there any metrics to measure success, 
to measure whether we're making progress?
    Ambassador Negroponte. Well, I think one of the metrics 
would be, as you, I think, implied in your question, cross-
border attacks into Afghanistan. Another would be if you saw 
the government operating effectively against some of these 
militant extremists, like, for example, bringing Baitullah 
Mehsud, the head of this extremist group in South Waziristan, 
capturing him and bringing him to justice, which is what should 
happen to him.
    Let me just say one other thing about dealing with this 
issue. In addition to improving their counterinsurgency 
capabilities, I think another important point is Pakistan-
Afghanistan cooperation. And I think it's good that we've 
created this tripartite border center, where we have Afghan-
Pakistan officials, or military, and ourselves. I think we need 
to do more of that.
    Also, there was a jirga--you may recall that--last August, 
a cross-border jirga that involved both Afghan and Pakistani 
tribal elements. And there's a suggestion that maybe another 
meeting of that kind would be a good idea. Anything that 
strengthens cooperation between the Pakistan and Afghans 
governments, from the two Presidents on down, is a positive 
thing.
    Senator Coleman. Can you address the central concern in the 
GAO report a little--just a little more specifically? The 
report says, ``Since 2002, the U.S. Embassy in Pakistan has not 
had a Washington-supported comprehensive plan to combat 
terrorism and close a terrorist safe haven in the Federally 
Administered Tribal Areas.''
    Ambassador Negroponte. Yes; I think I would acknowledge 
that maybe there could be more work done in the planning area; 
and, in fact, we are doing more. And right now, as we speak, 
under the auspices of the National Security Council we're 
taking another look at the border area and seeing if we can 
look at the Afghanistan-Pakistan border in a more integrated 
way. But, we have had plans, Senator. We've had--we have a 
development plan, we have a military plan, we have an 
assistance plan. They may not have been tied together quite the 
way the GAO report suggests, and we're working on that as we 
speak.
    One of the things we've done, in addition to this planning 
process--and this is very recent--we have just named border 
coordinators--this is in the State Department, now--at each of 
our embassies, and one in our Bureau of South and Central Asian 
Affairs in the State Department. So, you have a sort of a 
three-way border coordinator nexus, if you will, that can focus 
exclusively on these common border issues between Afghanistan 
and Pakistan.
    Senator Coleman. How would you assess the level of 
cooperation/coordination amongst State, Defense, intelligence, 
USAID, when it comes to this area?
    Ambassador Negroponte. In Pakistan? I would say it's very 
good. It's done on a different basis than it is in Afghanistan 
or Iraq, because we operate in Pakistan under the country-team 
system; there is no military command. But, we have one of our 
most capable ambassadors there. Ambassador Patterson, as you 
know, was our Ambassador in El Salvador and in Colombia. She's 
the best we've got. And she does a terrific job there.
    Where we also are challenged, though, I think, is in the 
coordination of cross-border issues, because you don't have the 
same identical mechanisms between the two countries. But, we're 
working on that, as well, and that's one of the reasons for 
this border-officer mechanism that we have established.
    Senator Coleman [presiding]. Having worked with Ambassador 
Patterson when I chaired the Western Hemisphere Subcommittee, 
and her work in Colombia, I share your assessment----
    Ambassador Negroponte. Well, thank you.
    Senator Coleman [continuing]. Of her capabilities.
    Senator Casey.
    Senator Casey. Thank you, Mr. Chairman.
    Mr. Secretary, we thank you for your service and your 
presence here today, I wanted to pick up with a couple of 
comments you made just a few moments ago.
    On the question of--the question of negotiations--we know 
that there are a lot of charges back and forth about who is 
pushing negotiations, when and who's most responsible for what 
has played out. Some would assert that the new government is 
pushing negotiations in a way that maybe the former government 
wasn't. And the other side would contest that. What's your 
sense of that, in terms of where the push is coming? Do you see 
a policy that's been a consistent one as it pertains to these 
negotiations, or do you think the new government has a 
radically or substantially different approach than, for 
example, General Musharraf would?
    Ambassador Negroponte. I do not believe that the new 
government has radically changed the perception. When I was 
recently in Pakistan, I met with both Mr. Zardari, the head of 
the governing--the leading party, and with the Prime Minister; 
and, in fact, the Prime Minister just met with President Bush 
in Sharm el-Sheikh and expressed his strong commitment to 
carrying out the war on terror.
    My understanding is that some of the ideas about 
negotiations had been in existence well before this new 
government took office, and had been carried out, perhaps, more 
at the tactical level, if you will. That said, it remains a 
concern in our mind that there are elements of the government 
that appear to be interested in pursuing this track, and our--
we've expressed our view. We are concerned, and we think that 
they ought to proceed cautiously in this.
    Senator Casey. I know no one can predict the future on 
this, but you expressed a concern--you've expressed it a couple 
of times most recently. One of the concerns you have is that 
elements within the government are pushing this in the wrong 
direction. What is your sense, in the next couple of--let's 
say, the next 6 months--that those elements will predominate, 
that their point of view will be having more influence than it 
is now? Do you have any sense that there's a----
    Ambassador Negroponte. Well, I can't be certain. As I said, 
I would hope that they proceed cautiously and not accept an 
outcome that would give extremist elements the right or the 
ability to use the FATA area with impunity to carry out attacks 
on Pakistan, to carry out attacks on Afghanistan or the United 
States or the rest of the world. So, there's a lot at stake 
here, and we've made that point repeatedly.
    There are those who would argue that--or, who would assess 
that, perhaps in this initial phase of this new government, 
that there are voices within the Pakistani body politic urging 
sort of a negotiating approach first before one has to resort 
to more vigorous security measures. But, I think the response 
to that is, that approach was tried before, in 2005, as I 
mentioned, and it turned out not to work.
    Senator Casey. I want to transition to two different areas. 
One is something you raised in your response to a question 
about the ability of the Pakistani Government to make the 
transition from a conventional approach that sometimes had most 
of the time, I should say, had a focus on India--to a more 
counterinsurgency, counterterrorism focus. (a) Where do you 
think they are in that process--scale of 1 to 10, say? And, 
(b), what do you think is impeding progress on their ability to 
make that transition?
    Ambassador Negroponte. Yes. I'd be reluctant to be grading 
their performance. I think I would say that there's a lot of 
work to be done.
    One of the reasons I'm reluctant to engage in some kind of 
evaluation like that, a public evaluation, is, I think we've 
got to recognize the sacrifices that the Pakistani military and 
security forces have made. They've lost more than 1,000 people 
since 9/11. The number of suicide bombings has gone up 
dramatically in the past year; I think, five times as many 
suicide bombings last year as they were in the previous years, 
subsequent to 9/11. So, they're paying a real price for this 
stepped-up terrorist activity.
    Senator Casey. What do you think is impeding them from 
making the progress that you would hope that they would make, 
or would have made by now, in terms of their ability to carry 
out a counterterrorism or counterinsurgency?
    Ambassador Negroponte. Well, as I said. I think they've had 
some successes. Plots have been disrupted. If you look at the 
number of, particularly, al-Qaeda elements that have been 
captured in Pakistan, if you look at some of the high-value 
detainees that we hold in Guantanamo, those have been the 
result of United States-Pakistan cooperation. So, it's a mixed 
picture.
    I think the area where they could make improvements, and 
where we want to support them, is in adopting this integrated 
approach to the FATA, both on the economic and development side 
and on the side of establishing a more effective security 
presence, which, I think, in the long run, is going to come 
through strengthening the local security forces--the frontier 
corps and the local security forces there, who probably are 
more acceptable security presence to the local residents than 
the national army.
    Senator Casey. I just have another 30 seconds or so. The 
last question is on USAID. It's my understanding that, since 
2001, Pakistan has received $5.3 billion in overt assistance 
and another $5.6 billion in so-called Coalition Support Funds, 
CSF funds--roughly about $11 billion. If you were responding to 
a taxpayer who says, ``We've spent $11 billion, we've made some 
progress there, but the Pakistanis are not doing enough to root 
out the extremist elements and to prevent the launching of 
terrorist attacks on the United States or other allies,'' what 
would you say to that taxpayer?
    Ambassador Negroponte. The first thing I would say, as we 
all say up front--is that Pakistan's a critical ally in the war 
on terror, and that, since 9/11, we've been very closely 
aligned with them in this fight, and that half of that money--
it's actually $5.9 billion--have been Defense Department 
reimbursements, effectively, for the costs that the Pakistan 
Security Forces have incurred in supporting us in the war on 
terror, including allowing for, and providing for, resupply of 
our effort in Afghanistan through Pakistani ports and roads and 
so forth. And the other $5 billion has been spent on various 
assistance programs, which, for a country of 160 million people 
over a 7-year period, I would say is not an unreasonable level 
of support, given the criticality of that country.
    Senator Casey. Thank you.
    Senator Kerry [presiding]. Senator Lugar.
    Senator Lugar. Thank you, Mr. Chairman.
    Secretary Negroponte, I'd like for you to characterize, if 
you can, the size and scope of the Taliban movement on both 
sides of the border, in this sense, that after the United 
States left Pakistan and left Afghanistan after the Soviets, 
and the Taliban regime came into power and protected the al-
Qaeda camps. It was then that Americans discovered the Taliban, 
in that sense, but also discovered that there was a Taliban 
movement in Pakistan, or at least support of that on the other 
side of the border, and that has been a constant in this 
process. What I'm curious is--Do we have any data or any 
estimates of how large the Taliban movement is in Afghanistan, 
as well as in Pakistan, and the relationship between these 
movements, or, maybe it is one movement on both sides of the 
border? This, as distinct from al-Qaeda cells or specific new 
types of insurgents? In other words, in terms of grassroots or 
a larger movement, how many persons do we think we're dealing 
with?
    Ambassador Negroponte. I honestly don't know the answer to 
that question, Senator. Obviously, I can supply it for the 
record.

    [The information referred to above follows:]

    Due to uncertainties described below it is impossible to offer more 
than a very broad range when numbering active Taliban fighters. The 
security situation in most rural areas of Afghanistan is fluid and 
dependent upon constantly shifting relationships among local government 
representatives, tribal elders, local religious leaders, coalition 
forces, and the Taliban and other insurgent groups. The security 
situation in most of the areas of the Tribal Areas of Pakistan is also 
fluid, though to a lesser degree. The periodic reduction of part-time 
fighters who put down their weapons to work the fields during the poppy 
harvest season causes a large seasonal fluctuation in the number of 
Taliban in both countries. The criteria for being counted as 
``Taliban'' also complicate the analysis. For example, based on a State 
Department review of military operations and insurgencies in 
Afghanistan since the 1979 Soviet invasion, most Taliban are part-time 
fighters (estimated to be \2/3\ to \3/4\ of total fighters) whose 
fielded numbers regularly, and significantly, fluctuate depending on 
Taliban needs and United States and Coalition military operations, 
among other factors (including the poppy harvest season). We estimate 
\1/4\ to \1/3\ of total fighters are full-time Taliban. Given these 
considerations, various sources report Taliban numbers that range from 
perhaps 2,000 core fighters to as many as 24,000, when counting part-
time recruits.
    We believe that the precise number of Taliban fighters is a less 
important factor than their operational ability to influence and 
intimidate the Afghan population. Therefore, our counterinsurgency 
efforts are designed to separate the people from the enemy and win over 
the population by helping Afghans develop trust and gain confidence in 
their national, provincial, and local governments, thereby rendering 
the Taliban irrelevant.


    Ambassador Negroponte. But, what I would say is this, that 
in Afghanistan I think the Taliban suffered a very serious 
blow, obviously, when we retaliated in the wake of 9/11, and I 
think in the northern half of the country, clearly the Taliban 
have been much diminished. If you look at the areas in 
Afghanistan where they do still present a significant problem, 
I would say it's in the two or three provinces that border on 
Pakistan--Helmand, Kandahar, and so forth. But, I'm afraid--
and, of course, on the other side of the border, we've been 
particularly concerned that some of the Taliban leaders have 
been able to find refuge in Pakistan, and even engage in some 
of their operational activities, although, I would say, in 
recent years there have been a number of instances where 
Taliban leaders have been captured and picked up by Pakistani 
authorities, so I think they've cracked down somewhat on that 
activity, as compared to previously. But, I'm afraid I don't 
know the exact estimates.
    Senator Lugar. Well, I appreciate that, but I hope, in the 
Department, perhaps there's some research on this, because the 
Taliban is a larger situation, in terms of numbers. Even if it 
is compressed in the southern part of the country, and some 
would see, if we are unsuccessful on either side, some 
resurgence of the Taliban. Not in an overthrow of the Karzai 
government, but, nevertheless, as a significant political 
movement and force within the country, which prevailed for a 
while previously, certainly prior to our entry into the 
situation, and the support of this, philosophically or 
theologically or what have you, on the Pakistan side, would 
appear to be more than simply leaders coming and going--in 
other words, an indigenous movement that perhaps we have not 
really thought about as much because of the dramatic incidence 
of specific terrorists or other individuals that we're 
following. I'm just trying to, at least in my own mind's eye, 
see what we have to deal with in the long run, what the 
Pakistani Government has to deal with, really, now, as a matter 
of fact.
    Now, the second part of my question is that, given that 
Pakistani Government, the--there's a great deal of discussion 
in the press about the problems of Mr. Zardari and Mr. Sharif, 
as the leaders of the major factions, and one of the major 
problems centers now about the restoration of the judges and 
the judiciary. This obviously affects the relationship with 
these two leaders with President Musharraf, who obviously had 
an interest in this, in displacing the judges to begin with. Is 
this going to be a significant enough difficulty that this 
government is hobbled in tackling other problems? To what 
extent is this coalition likely to hold together, given these 
kinds of very fundamental problems as to how to proceed in 
governance of the country?
    Ambassador Negroponte. The restoration of--or the issue of 
the judges--and we've said before, and I would repeat here--is 
something that we feel the government itself and the political 
forces in Pakistan need to resolve amongst themselves. It's an 
issue that's been under discussion between the leaders of the 
two principal political parties; and, thus far, they have not 
reached a resolution. I think I would say that when that issue 
is resolved, and assuming it is, and if it's done in a way that 
doesn't lead to some kind of political instability, I think 
that would then permit the government to concentrate more on 
other priority tasks.
    Senator Lugar. Well, just picking up that point, some 
commentators would say that--in their own way, that Mr. Zardari 
and General Musharraf have a common cause here, for different 
reasons, with regard to the judiciary, but that Mr. Sharif has 
a very different point of view than the other two. And because 
this is apparently a fairly fundamental issue of governance, we 
get to the point that you just made; obviously, it would have 
more energy with regard to the rest of life if somehow this 
central focus was resolved, but it's not necessarily a short-
term affair, apparently. The attempt to get it over didn't work 
out.
    Ambassador Negroponte. Yes. Well, there appear to be some 
stresses in the current coalition, because my understanding is 
that Mr. Nawaz Sharif has withdrawn his Cabinet members from 
the government.
    Senator Lugar. Yes.
    Ambassador Negroponte. So, it's clearly an unresolved 
issue, it's a dynamic situation, and there are considerable 
uncertainties; I would agree with that.
    Senator Lugar. Finally, we are concentrating on insurgents. 
Does Pakistan have a problem of food security? Where does that 
stand in the midst, now, of the general thoughts around the 
world, that we are in trouble, in terms of feeding people? Is 
that true in certain parts of Pakistan? And, if so, what stress 
does this place on the government?
    Ambassador Negroponte. They have difficulties in both the 
area of energy and food security. This is a country----
    Senator Lugar. In both, yeah.
    Ambassador Negroponte [continuing]. This is a country hat 
depends on energy and food imports, and that is a cause of both 
political and social concern. Perhaps not to the extremes that 
it might have been in certain other countries, but it's 
definitely a cause of concern. And the last time I was there, 
it was mentioned to me frequently.
    Senator Lugar. So, this should be a fundamental concern of 
ours, even as we're concentrating on terrorists, back and 
forth; because, fundamentally, the stability of the government, 
whether it be the judges or the food or so forth, really play 
quite a part in how effective they may be.
    Ambassador Negroponte. Well, and it's one of the reasons we 
have an interest in their economic development and why we care 
about these Reconstruction Opportunity Zones. Senator Cantwell 
has introduced legislation in the Senate. We don't know if 
there's yet been a corresponding piece of legislation submitted 
in the House, although we understand there may be some sponsors 
lining up. But, that would be a very concrete way in which our 
country could be helpful in creating additional economic 
opportunities for people who live in the border region--in all 
of Afghanistan, because these ROZs would apply to Afghanistan 
in its entirety, and to the border area of Pakistan.
    Senator Lugar. Thank you, Mr. Chairman.
    Senator Kerry. Thank you very much, Senator Lugar.
    Senator Feingold.
    Senator Feingold. Thank you so much, Mr. Chairman.
    For over 5 years, we've watched al-Qaeda rebuild, while 
this administration has focused much of its attention on an 
endless and misguided war in Iraq. It has now become common 
knowledge that in the FATA region of Pakistan, al-Qaeda, the 
most real threat to our national security, has reconstituted 
itself and its operational capabilities. Before Pakistan's 
election a few months ago, President Musharraf's grip on power 
was unquestionably a roadblock, not only to addressing these 
terrorist threats, but also to strengthening democracy in 
Pakistan. Under his tenure, a political and religious upheaval 
grew across the country, while the threats to our national 
security increased, as well.
    Now, with the election, Mr. Chairman, of a new government, 
we have an opportunity to support leaders in Pakistan who have 
pushed democratic principles to the forefront of their agenda, 
while also seeking to ensure our national security interests 
are met. We need to support this new government's efforts to 
strengthen this democracy just as much as we support security 
and counterterrorism initiatives. That is because fighting 
terrorism and supporting the people of Pakistan are 
intertwined. Counterterrorism operations against al-Qaeda 
throughout the FATA region are critically important, but that 
alone will not make for a more secure, stable Pakistan. 
Terrorist safe havens, of which the FATA is probably the most 
dangerous example, require comprehensive policies that use all 
the tools at our disposal, long-term strategic planning, and 
the commitment of resources over the long term. They also 
require sustained high-level attention, something that too 
often has been sorely missing as this administration continues 
to overly fixate on the war in Iraq.
    If we fail to undertake this effort, we will have failed to 
learn the painful lessons of history in a region that is home 
to the greatest threat to our national security: Al-Qaeda.
    Mr. Secretary, President Musharraf clearly failed to 
neutralize, or even reduce, the strength of extremist elements 
along the Pakistan-Afghanistan border. As the new coalition 
government is undertaking a renewed negotiation effort, I'm 
interested to hear your assessment of whether the new 
government can succeed in this initiative, particularly given 
the internal challenges that this coalition is facing at 
present and whether we support this initiative.
    Ambassador Negroponte. Earlier, with Senator Casey, I was 
saying, Senator, that the past experience of negotiating these 
kinds of arrangements with the extremist militants in South 
Waziristan, back in 2005, had not worked out, and the 
Government of Pakistan ultimately recognized that and abandoned 
that effort. It's not entirely clear what is happening at this 
point in time. Our own assessment is that the government--the 
new civilian leaders are committed to the war on terror and to 
dealing with the militants. That's something that the Prime 
Minister of Pakistan told President Bush in Sharm el-Sheikh, 
just a couple of days ago. There may be some discussions going 
on at a tactical level in Pakistan, but it's not entirely clear 
whether a deal will actually be consummated with these 
extremist elements. But, if such a deal were to be negotiated, 
we would be very concerned if it didn't deal with the issue of 
preventing people from using the FATA area as a safe haven.
    Senator Feingold. Well, Foreign Minister Qureshi has said 
that while he doesn't believe in negotiating with terrorists, 
he does believe in, ``political engagement.'' What do you think 
that means with regard to the FATA region and the current 
agreement that's being negotiated? And how will the U.S. 
suggest, you know, enforcing any negotiated agreements?
    Ambassador Negroponte. Well, as I said, we have real 
reservations about a negotiated agreement, so I don't think 
we're ready to comment on how it would be enforced. I think one 
of the issues is that it's difficult to enforce unless you have 
the requisite capabilities on hand, a strong security presence. 
And I think, as you were saying earlier, in your statement, we 
need to work with the Pakistani Government to help them build 
an integrated approach and to support their integrated approach 
to the FATA area. I think that's the best way to go about this.
    Senator Feingold. Well----
    Ambassador Negroponte [continuing]. But we have real 
reservations----
    Senator Feingold. On that point----
    Ambassador Negroponte [continuing]. About some----
    Senator Kerry. Let me interrupt you for one moment.
    I want to remind everybody here in the audience that we 
welcome people with different points of views, we welcome 
people to be seated and to listen thoughtfully to the hearing, 
but there is a rule in the committee against any kind of 
demonstration, of one kind or another, whether it's standing, 
holding signs, signaling, or otherwise. So we ask citizens to 
please respect the rules and decorum of the Senate and this 
committee.
    Thank you, Mr. Secretary. Thank you, Senator.
    Senator Feingold. Thank you, Mr. Chairman.
    Mr. Negroponte, you were, sort of, starting to get at 
this--you know, what happens if these current negotiations do 
not succeed? What are the alternative options? What other 
strategies are being discussed if this idea of trying to come 
up with this kind of an arrangement doesn't work?
    Ambassador Negroponte. Well, let me be clear, we're not the 
advocates of negotiating with the extremist militants, so it 
seems to us what one has to do is depart from the question, 
``What is it that you can do about this extreme--militant 
extremism in the first place?'' And it seems to us, you've got 
to have an integrated approach, deal with the development 
issues, deal with the questions of helping integrate the FATA 
into the rest of Pakistan, which is one of the objectives of 
this $2 billion plan that the Pakistani Government has. And we 
should--we want to be supportive of that with our own 
contribution. And then, there's the security component, which 
involves building up local security forces and improving cross-
border cooperation between us and the Afghans on each side of 
the border, between the Pakistani Government, on the one hand, 
and the Afghans, on the other.
    Senator Feingold. Can you describe our relationship with 
the Awami National Party, the ANP? As a junior member of the 
coalition party in Islamabad, which leads the Northwest 
Frontier Province's provincial government, and it's now the 
main representation, as I understand it, from that region, does 
the ANP have a role in helping to bring about greater security 
throughout the region?
    Ambassador Negroponte. Well, regarding our relationship, 
certainly they achieved a striking political success--this is 
secular political party managed to win a large number of the 
seats in that northwest frontier area. I met with their party 
leader when he came to Washington recently. We maintain a good 
relationship with the party through our consulate in Peshawar. 
I think they are a voice, they are an element, but only one 
element, in helping deal with that situation, but I think 
they're a voice for moderation, and, in that sense, we want to 
give them encouragement.
    Senator Feingold. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Kerry. Thank you, Senator.
    Senator Isakson.
    Senator Isakson. Thank you, Mr. Chairman.
    Secretary Negroponte, the Reconstruction Opportunity Zones 
you referred to--both in Afghanistan, as well as in the FATA--
would you describe for me what one of these areas would look 
like?
    Ambassador Negroponte. To the best of my ability.
    Senator Isakson. It portends that it's an area that's been 
destroyed or damaged by conflict, in my mind, but--am I wrong 
in that?
    Ambassador Negroponte. This is the term that we came up 
with in other places. They have different names. I think 
there's ones in Egypt, there's ones in Jordan. They are in 
different parts of the world. But, basically, this would be an 
area where products, if they met certain criteria they would be 
able to export their products, duty free, to the United States. 
The basic idea is to give some incentive for investment in that 
area for manufacturing. And it would be for the FATA area, and, 
if I remember correctly, perhaps one or two other adjacent 
areas, but up in that border region of Pakistan.
    Senator Isakson. Would it include providing microloans or 
capital for that business to--or enterprise--to take----
    Ambassador Negroponte. Well, certainly, if the legislation 
might not, it would be within the capacity of our assistance--
our AID programs to do that.
    Senator Isakson. On the question of education, a couple of 
times you refer to, I think, 3 percent literacy rate among 
women in the FATA--I think that was a reference--and there 
being no public education system except for the madrassas. Are 
these the only real source of education in that area?
    Ambassador Negroponte. I believe so, but, frankly, I don't 
know the entire educational picture in the FATA. But, you're 
certainly right that there is a lot of illiteracy. And I also 
sensed, when I've visited Pakistan, that there's a great deal 
of desire in the NGO community to try to help improve 
conditions in the FATA. And that could be a positive element, 
as well.
    Senator Isakson. Well, there are some other examples. I 
know in Ethiopia the effort through NGOs and the Basic 
Education Coalition dramatically changed that landscape over 
the last decade toward a Western favoritism, if you will. So, I 
think that investment is important.
    You made a reference, ``To cite an important example, the 
Department of Defense will''--prospectively--``be equipping and 
training special operation units of the Pakistani Army for the 
purpose of special operations in the FATA.'' Is that something 
that's in the works and being done, or is that a plan to do?
    Ambassador Negroponte. Well, it's a plan, and we've also 
sought funding for it. So, yes, it's something that will be; 
it's not a pipedream, it's something we intend to carry out.
    Senator Isakson. Second part of the question is--the next 
sentence says, ``Our programs are providing those forces with 
the skills necessary to permanently prevent militants and 
terrorists from exploiting the Pakistani territory as a staging 
ground for attacks in Afghanistan, Pakistan, and beyond.'' So, 
I take it, with that, the newly elected government wants to do 
that, establish a permanent plan to be able, through special 
operations, to interdict with militant operations and try and 
expel them from the FATA. Is that right?
    Ambassador Negroponte. Well, I don't know if they've ever 
commented specifically, as yet--they've been in office 6 
weeks--I don't know if they've ever commented specifically on a 
particular type of training. But, what they have said on 
repeated occasions--and, as I said earlier, including the Prime 
Minister to the President of the United States--that they are 
committed to the war on terror, they are committed to fighting 
against extremist militancy in their country.
    Senator Isakson. Well, given your comment on the quality of 
intelligence, in your citing of the intelligence we were able 
to gain on the aircraft that was going to fly from Great 
Britain to the United States, it would seem that if our 
intelligence level continues at that rate, and hopefully 
improves, that this type of a force would be absolutely 
essential to eradicate those who would plot against us here, as 
well as in Afghanistan.
    Ambassador Negroponte. Well, I think it would be, and I 
think it also--rather than talking, as sometimes people do, 
about unilateral solutions, I think it would be much better for 
us to work cooperatively and collaboratively with the 
Government of Pakistan, and work with them, so that they can 
increase their capabilities to deal with these issues.
    Senator Isakson. Well, I absolutely concur. Just as the 
Iraqis take over more of the operations, that's better in Iraq; 
if the Pakistanis are taking over--taking control of their own 
operations initiatives, that's in the best interest of the 
country and the war on terror.
    Thank you, Mr. Secretary.
    Senator Kerry. Thank you, Senator.
    Senator Nelson.
    Senator Bill Nelson. Senator Menendez was ahead of me.
    Senator Kerry. Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman. Thank you to my 
colleague from Florida.
    Mr. Secretary, thank you for your testimony.
    I am one of the corequesters of the GAO report that we will 
be discussing in the next witness, a report--the title, which 
says it all, ``The United States Lacks a Comprehensive Plan to 
Destroy the Terrorist Threat and Close the Safe Haven in 
Pakistan's Federally Administered Tribal Areas,'' a title that 
is, unfortunately, so tragically comical that it appeared on 
Jon Stewart's ``Daily Show.''
    Now, I am listening to your testimony, and I am trying to 
figure out, ``Do we really have a grasp, here, of what we've 
done, $11 billion later?'' In supplementary materials the State 
Department submitted to Congress outlining the plan for the 
2008 supplemental request, it says, ``Despite Pakistan's 
military successes against terrorists and militants in the 
FATA, the U.S. and Pakistan agree that there can be no purely 
military solution to the problem.''
    Now, I contrast that sentence with the GAO report that 
states, ``According to the DOD''--the Department of Defense--
``the Pakistani Army has been unsuccessful at defeating 
terrorists in FATA, its security forces lack counterinsurgency 
capability, the army is neither structured nor trained for 
counterinsurgency, and serious equipment and training 
deficiencies exist in the frontier corps.''
    Do you disagree with DOD's assessment?
    Ambassador Negroponte. I think, Senator, this is a question 
of a glass half empty or half full. You can't--I mean, there's 
obviously so much to be done up there, and more improvements to 
be made.
    Senator Menendez. But, do you disagree with DOD's 
assessment?
    Ambassador Negroponte. Well, you'd have to----
    Senator Menendez. The assessment that they quoted directly 
in the Government Accountability Office report says that the 
Pakistan Army has been unsuccessful at defeating terrorists in 
FATA, that its security forces lack counterinsurgency 
capability, that it is neither structured nor trained for 
counterinsurgency, and that serious equipment and training 
deficiencies exist in the frontier corps. Do you disagree with 
that?
    Ambassador Negroponte. I would partially agree with it. I 
think they lack requisite training and capabilities in the 
counterinsurgency area, and I think it's an area that needs to 
be improved. But I would say that they have had some successes. 
We were talking about it earlier.
    Senator Menendez. I heard what you referred to as 
``successes,'' and that's my problem here. I see what the 
Government Accountability Office said, I see the direct quote 
from the Department of Defense, that really has the military 
side of this, and clearly that leaves us $11 billion without--
at least this Member of the Senate--without any satisfaction, 
and, I think, the American taxpayers, as well. And yet, it 
seems to me that you have a lower standard of what ``success'' 
is, $11 billion later.
    And when I look at your own description to the Congress, in 
terms of promoting the 2008 supplemental request, where you say 
there can be no purely military solution, look at the DOD's 
report--I mean, the--the Government Accountability Office's 
report, where their chart lists the six elements of national 
power--diplomatic, military, intelligence, development 
assistance, economic, law enforcement support--and then 
presents a funding breakdown for that period of time, 2002 
through 2007--96 percent of the funding is for military 
efforts. And yet, this is the analysis that the DOD has after 
96 percent of $11 billion went for that very purpose. Three 
percent went for border security, and 1 percent went for 
development assistance.
    I've listened to all your answers on development 
assistance, but, I say to myself, for 5 years we have been 
pumping 96 percent to military efforts, and we have the DOD 
saying that they don't have the capability, and now we say we 
can't achieve a military success simply in the FATA----
    Ambassador Negroponte. Yes.
    Senator Menendez [continuing]. Region, but we have only 
done 1 percent of development assistance, $11 billion later. I 
mean, what is the plan.
    Ambassador Negroponte. With respect, Sir, those figures 
just don't strike me as accurate.
    Senator Menendez. So, you dispute the Government 
Accountability Office's report.
    Ambassador Negroponte. I have no interest in getting into a 
dispute with the Government Accountability Office, but I can 
tell you the figures that are looking at me, right here. As I 
mentioned earlier, about half the amounts of assistance are 
reimbursements to the Government of Pakistan for its support to 
us in the war on terror. So, I think of that more like an 
offset than I do as assistance. These are reimbursements 
directly to the Pakistan treasury. But, of the remaining $5.1 
billion, $2.9 that has been--that's a substantial percentage of 
that $5.1 billion, it's almost 60 percent has gone to child 
survival and health programs, development assistance, economic 
support funds, international disaster and famine assistance, 
Public Law 480, and migration and refugee assistance.
    Senator Menendez. Well, I----
    Ambassador Negroponte [continuing]. And human rights and 
democracy programs.
    Senator Menendez [continuing]. I'd refer you to page 10, to 
the chart, which very clearly says 96 percent is military 
efforts. One percent is development assistance, 3 percent is 
border security programs. So, somebody's wrong, and I think we 
need to get it before we keep giving you money.
    Finally, let me ask you this. I have a little difficulty 
understanding--you know, Do we have a real grasp, here? The 
Center for Strategic and International Studies states that, 
``Pakistani and American analysts and officials have only a 
rudimentary understanding of the complicated alliances, 
dynamics, and threat posed by the numerous groups operating in 
the FATA region.''
    Do you agree with that statement?
    Ambassador Negroponte. That we have a limited 
understanding?
    Senator Menendez. That you have a rudimentary understanding 
of the complicated alliances, dynamics, and threat posted by 
the numerous groups----
    Ambassador Negroponte. Well, having been the Director of 
National Intelligence, I can tell you there are a lot of people 
working on understanding those dynamics, and I think, in a 
different setting, maybe they should provide you with a 
briefing on that.
    And also, I want to--I will come back to you on these 
figures of the General Accounting Office and address those, 
because I do believe they are incorrect, and I don't think they 
are an accurate portrayal of our rather balanced assistance 
effort in Pakistan.
    Senator Menendez. Well, we look forward--I'd look forward 
to seeing it, because we cannot continue to provide a blank 
check for a failed policy, and that is what we are being asked 
to do.
    Thank you, Mr. Chairman.

    [The information referred to above follows:]

    According to the report, ``Combating Terrorism: The United States 
Lacks Comprehensive Plan to Destroy the Terrorist Threat and Close the 
Safe Haven in Pakistan's Federally Administered Tribal Areas,'' 
security-related and counterterrorism spending constituted 96 percent 
of total U.S. aid in the Federally Administered Tribal Areas, totaling 
$5.8 billion. This amount, however, includes of $5.5 billion reimbursed 
to the Government of Pakistan for expenses incurred directly supporting 
U.S. efforts in the War on Terror. Reimbursing Pakistan should not be 
considered assistance. These countries expend national funds upfront, 
and the U.S. Government provides reimbursement later, through Coalition 
Support Funds.
    By our accounting, which does not include Coalition Support Fund 
reimbursements, total aid to Pakistan during 2002-2008 exceeded $5.1 
billion. This assistance supported economic, governance, development, 
and security goals, with 59 percent of the funding directed toward non-
security related programs.
    In 2006, Pakistan began in earnest its efforts to extend governance 
into the Frontier region--particularly the Tribal Areas--by supporting 
the security, development, and services required to transform this 
region. To this end, the Pakistani Government developed a 9-year, $2 
billion, Sustainable Development Plan. The United States has seized 
this opportunity to help Pakistan address the root causes of violent 
extremism in the border areas: lack of education, employment, and 
health services. The U.S. Government pledged $750 million to support 
the Sustainable Development Plan over 5 years, starting in fiscal year 
2007. Thus, we will support infrastructure development, social welfare, 
and capacity-building initiatives. Additionally, we have requested $100 
million in the fiscal year 2009 supplemental for the Security 
Development Plan, designed to provide the security necessary for its 
success. With these programs, we will tackle the systemic sources of 
terrorism while helping Pakistan to integrate fully Tribal Area 
residents into the Pakistani state.


    Senator Kerry. Senator Barrasso.
    Senator Barrasso. Thank you, Mr. Chairman.
    Mr. Secretary, when I was in Afghanistan, a month and a 
half ago, the role of narcotics was a prime topic of 
discussion. Ninety-six percent of the world's supply of opium 
comes from Afghanistan and the borders are porous. I think of 
narcotics as corrosive to society and corrupting to the 
governments when it's such a high percentage of Afghanistan's 
overall economy. The question is, With porous borders, how much 
of an issue are the drugs and drug money in Pakistan, and 
efforts to really get a better handle on this area and the 
border?
    Ambassador Negroponte. My understanding is that the issue 
of narcotics is not at anywhere near as acute as in Pakistan as 
it is in Afghanistan, and certainly not on the scale and in the 
amounts that we see in Afghanistan, although I would say, in 
Afghanistan, the areas where the problem is the worst is in the 
least secure areas, is where the government and the security 
forces have the weakest presence.
    Senator Barrasso. The last time we visited in this 
committee, the elections had just occurred in Pakistan, the new 
government hadn't been formed. Now that the new Government has 
been formed, could you give us an assessment on your opinion of 
how things are going with the formation of the new government? 
Knowing the history of military involvement in Pakistan, how do 
you see the newly elected government working along with the 
army and the relationship there with respect to the FATA?
    Ambassador Negroponte. Well, I think that the government 
has only been, of course, as I mentioned earlier, in office 6 
weeks. I think they're still in a bit of a--you might call it a 
shakedown cruise. I mean, there are relationships to be worked 
out. These are civilian politicians who have been, both of 
them, in exile for long periods of time prior to taking office. 
So, I think this is--this process is still sorting itself out.
    As far as the military are concerned, I think they're very 
committed to civilian rule, and supportive of that process.
    And I would like to say--there was a comment made about 
President Musharraf, previously--I'd like to commend President 
Musharraf for having made the elections possible, allowing them 
to take place honestly, and having taken off his uniform, as 
requested and pressed by the various civilian political forces. 
So, before we criticize him too much, I think we ought to give 
credit where it's due, and I think he deserves a considerable 
amount of credit for having allowed these democratic elections 
to take place.
    Senator Barrasso. As you said earlier in your testimony, 
nothing is ever as black or as white as it may seem, and I 
appreciate that, and I know that is going to be an ongoing 
issue. I appreciate your comments and I look forward to 
visiting with you in the future.
    Thank you, Mr. Chairman.
    Senator Kerry. Thank you, Senator Barrasso.
    Senator Nelson.
    Senator Bill Nelson. Good afternoon, Mr. Secretary, and 
thank you for your public service, and thank you for your 
service in setting up the Office of the Director of National 
Intelligence.
    Ambassador Negroponte. Thank you.
    Senator Bill Nelson. I want to get to the matter of how, on 
September the 29th of last year, you could make a determination 
that, and I quote, ``Pakistan is currently making demonstrated, 
significant, and sustained progress toward eliminating support 
or safe haven for terrorists.'' And it was only just a few 
months thereafter, some 5 months, that your successor, Admiral 
McConnell, as the Director of National Intelligence, stated 
that, ``al-Qaeda and its terrorist affiliates continue to pose 
significant threats to the U.S. at home and abroad, and al-
Qaeda's central leadership is based in the border area of 
Pakistan and is its most dangerous component.''
    So, tell me, on what basis--share with the committee--did 
you make that September 2007 certification, and would you be 
able to make that certification again today?
    Ambassador Negroponte. I think we're, here again, with the 
half empty and half full. I think we're also in a situation 
where a government can be making good efforts, good-faith 
efforts to deal with militancy, but, at the same time, continue 
to face a significant problem. And I think that--when I made 
that certification, I think that what was brought to my 
attention was the ongoing efforts of the government, whether it 
had to do with capturing al-Qaeda militants, some of the 600 
who have been picked up since the--since 9/11, and some of the 
other efforts that they're engaged in, intelligence cooperation 
and so forth.
    Would I be able to make that certification now? I probably 
would, but obviously before I did I would have to look at all 
the facts and have them brought before me, and I would have to 
do it based on some kind of a considered assessment.
    Senator Bill Nelson. Well, right now, for example, in 
whether or not you would issue such a certification, the 
current Pakistani Government is contemplating a cease-fire with 
militant groups in the FATA. Does that indicate that there are 
good-faith efforts to go after the safe haven for terrorists?
    Ambassador Negroponte. Well, as I've said earlier today, we 
are wary of these efforts. We view them with some concern. And 
I think that, obviously, if such an agreement is reached, one 
would have to look at what the terms and conditions were, and 
the provisions, and see if they were enforceable and what 
measures were implemented to enforce them. But, I've said 
repeatedly and on the record that we've had--have concern with 
talk of some such arrangement, and we know, from the past 
Pakistani experience, that when they entered into an agreement 
like that previously, it did not work out.
    Senator Bill Nelson. So, that would be the policy position 
of the U.S. Government today, the administration would say that 
they have some concern about the cease-fire.
    Ambassador Negroponte. Well, the outcome we don't want to 
see is any arrangement that allows extremist elements to 
operate with impunity in the FATA area against Pakistan, 
Afghanistan, us, or the rest of the world.
    Senator Bill Nelson. And that's what cease-fires give, is 
the opportunity for the bad guys to train and to plan and to 
operate freely in the FATA----
    Ambassador Negroponte. Well, the last agreement--it 
depends, of course, what's in the terms of the agreement--the 
last agreement said they would expel foreigners and they would 
take various measures to make sure that certain kinds of 
activities didn't take place. But, a lot would depend on the 
ability to enforce that kind of an arrangement, and we have 
some skepticism about their ability to enforce any such 
arrangement.
    Senator Bill Nelson. You're referring to the truce in 
Northern Waziristan between September 2006 and July 2007?
    Ambassador Negroponte. Yes, sir.
    Senator Bill Nelson. And what was the impact of that truce 
on the efforts to eliminate the support for safe haven?
    Ambassador Negroponte. Well, it certainly wasn't positive. 
Of course, the tribal areas consist of more than just one 
agency, there are seven different agencies, and there were 
efforts ongoing in other parts of the country, and also, 
Waziristan was kind of sealed off by their armed forces to 
contain the effects of the arrangement.
    Senator Bill Nelson. Mr. Secretary, I'm just a little 
country lawyer, but it seems to me common sense to know that a 
cease-fire basically causes the Pakistani military to pull 
back, and takes off all the pressure on the bad guys.
    Ambassador Negroponte. I----
    Senator Bill Nelson. You don't----
    Ambassador Negroponte. I don't have----
    Senator Bill Nelson [continuing]. Disagree with that.
    Ambassador Negroponte. I don't disagree with that.
    Senator Bill Nelson. Then, maybe the policy of the United 
States Government ought to be, vigorously, to be convincing 
Pakistan not to enter into such a cease-fire.
    Ambassador Negroponte. Well, we have drawn their attention, 
and on more than one occasion, to what we see as the pitfalls 
of this kind of arrangement. I don't disagree with what you 
just said.
    Senator Bill Nelson. Thank you.
    Thank you, Mr. Chairman.
    Senator Kerry. Thank you, Senator Nelson.
    Mr. Secretary, I don't know if we want to do a another 
round of questioning. We have another panel, and I know we all 
want to get to it. The hour is late. But, I'm troubled by where 
we find ourselves, and I want to say it to you this way, if I 
may.
    There is no question but that we are stronger as a country, 
and we will face our threats when we have a bipartisan 
consensus on our foreign policy. When we're all on the same 
page, America has had its best moments. And there is nothing in 
my questioning that I want to ask you that is trying to play 
``gotcha'' or put anybody in a politically defensive position. 
I want to assure you. However, I'm troubled. There's sort of a 
``Houston problem'' here, which is not of your making, but I 
want to try to understand it better on the table, and I think 
it will help us all think this through. There's no easy 
solution here.
    These tribal areas are tough areas. People in their own 
country are having trouble being able to try to deal with it. 
But, the bottom line for us as Americans is that, in September 
2001, those who attacked us and took down that airplane and 
those towers came out of Afghanistan and the free planning that 
they are able to do in that area. Now, we had a shot at taking 
them out when we first went in, and doing what we need to do at 
Tora Bora, and we didn't. We're now being told--6\1/2\ years 
later, by our own intelligence professionals whose duty it is 
to protect us, that we don't have a comprehensive plan, and 
that these terrorists are planning and are reconstituting, and 
are going about the business of doing what they did to us 
previously. And there isn't one of us here who doesn't 
understand this. And you do, too.
    So, the question for all of us is: If the DOD says to us 
they agree with the GAO, and USAID is saying they agree with 
the GAO, and you are still saying you've got a comprehensive 
plan, but we can't quite grapple with it, how do you assure the 
committee and the American people that we're doing everything 
that is in our power to be able to adequately secure the 
country and protect us against this plotting that we know is 
going on? This is troubling, would you not say?
    Ambassador Negroponte. It is. I think what's most 
troubling, of course, is the situation itself on the ground, 
and that we realize how difficult it is to deal with, because 
we can't deal with it just unilaterally.
    Senator Kerry. Something's missing here, clearly; either 
Pakistan, with this truce, is not going down the road that's 
going to be sufficient to get control over the area----
    Ambassador Negroponte. I think the----
    Senator Kerry [continuing]. Or----
    Ambassador Negroponte. I think what's missing is sufficient 
wherewithal on the part of the Government of Pakistan, assisted 
by its friends and allies, sufficient wherewithal to bring the 
state of affairs in the FATA area to a condition or a place 
where this kind of activity wouldn't take place. And how do you 
deal with that? You have to deal with it in a multifaceted way. 
You have to improve the security capabilities, you have to 
improve the economic conditions, and you have to improve the 
government presence in those areas, and that's what we're----
    Senator Kerry. Can those things be done at a rate that is 
fast enough to adequately deal with the definition----
    Ambassador Negroponte. Well, you're, in a way, asking me to 
make a prediction about what might happen, but I think that 
clearly it's a matter that has to--it's something that has to 
be dealt with as a matter of urgency.
    And, if I could add, I think, as time has gone on, we 
probably, in our minds, have elevated Pakistan today to a 
higher level of priority than it had been previously. I think, 
when we were looking at the situation in Afghanistan, we didn't 
always think of dealing with the situation in Pakistan in one 
and the same breath, if you will. And I think we're moving more 
towards that attitude and that point of view, and I think 
that's probably a good thing.
    Senator Kerry. What concerned all of us who visited--
Senator Biden, Senator Hagel, myself--was the sense we had that 
the Pakistanis themselves, particularly the new government, 
just don't see al-Qaeda in the same terms as you and our 
Defense--and our intelligence folks and as we define it. And 
they view their insurgent threat as the tribal insurgency, not 
al-Qaeda. And so, there's a difference, there's a divergence 
here in focus, if you will, and energy, and that greatly 
complicates this, it strikes me.
    Ambassador Negroponte. Well, they say that----
    Senator Kerry. Do you share that, that sense that there is 
a divergence in how they see it?
    Ambassador Negroponte. Well, as I said earlier, one area 
where we have worked quite well with the Pakistani authorities 
over--since 9/11, has been in capturing or detaining a lot of 
these al-Qaeda elements, these 500 or 600 Arab terrorists who 
have been captured during this period and put out of----
    Senator Kerry. How many have----
    Ambassador Negroponte [continuing]. Commission.
    Senator Kerry [continuing]. Crossed the border from various 
neighboring countries and----
    Ambassador Negroponte. Right, yes, I mean, hundreds of 
others. I just don't know the exact number, but clearly----
    Senator Kerry. Understood.
    Ambassador Negroponte [continuing]. A lot. And the concern 
that you mentioned, that some of them are regrouping now and 
have been coming back from the Middle East and into the FATA 
area.
    Senator Kerry. This is difficult for any administration. No 
matter whose party is in power, this is tough, and I think we 
all have to understand that we're going to have to figure it 
out and piece together something that is going to create this 
sense of comprehensiveness that people define as missing today. 
And, again, I say I don't think this does lend itself to some 
easy swish-swash answer, so I appreciate your saying that, but 
I do think it's also important for us to understand the 
divergence between where we want to be and where we are.
    Senator Coleman?
    Senator Coleman. No; I think the hour is getting late, and 
I would associate myself with the comments that you just made, 
Mr. Chairman. We have to sort this out, and it's--it shouldn't 
be--it's not a partisan thing. This is a dangerous area of the 
world for us, and we've got to get it right.
    Senator Kerry. Mr. Secretary, thank you.
    If there's no other--Senator Lugar, anybody?
    [No response.]
    Senator Kerry. We appreciate your taking the time to come 
in, and look forward to working with you on this, and we're 
grateful to you for your efforts.
    Ambassador Negroponte. If I could add one more point. I 
mean, the President committed $3 billion over a 5-year period, 
from the year 2005 to 2009, about half for development and half 
for security, and that was his commitment, back in fiscal year 
2005. So, I think we have an opportunity now----
    Senator Kerry. Over how many years?
    Ambassador Negroponte. This was over a 5-year period--it 
was $600 million a year, total----
    Senator Kerry. Yes.
    Ambassador Negroponte [continuing]. Half was for 
development and half for security.
    Senator Kerry. Well, this is going to open up a whole new 
debate here that we don't want to get into, but that's one-
quarter of what we spend in 1 month in a part of the world 
where they had nothing to do with 9/11.
    Ambassador Negroponte. Well, that was sort of going to my 
point. I think that we have an opportunity, as we look to the 
following period, to think about--and I would urge that we all 
think about Pakistan in a long-term--on a long-term basis. I 
mean, this is, as you have said, a very, very important 
relationship, and----
    Senator Kerry. Yes.
    Ambassador Negroponte [continuing]. We have to think about 
how we're going to nurture and cultivate this relationship over 
the long terms rather than going through peaks and valleys and 
having----
    Senator Kerry. Well----
    Ambassador Negroponte [continuing]. Ups and downs like 
we've had in the past.
    Senator Kerry. I agree with you. And as we close, I'd say 
to you that unless there is a greater border capacity, with 
overflight and sensors, a whole bunch of other things, I'm 
afraid that given what I saw, at least, of the tribal moving 
back and forth and the interrelationships of those families and 
the kidnaping of kids from Afghanistan into madrassas in 
Pakistan, and so forth, it's going to take one hell of an 
effort up there to try to, ``shut that down.'' And I think you 
know that.
    That said, let's move to the next panel, and we thank you, 
Mr. Secretary, for----
    Ambassador Negroponte. Thank you.
    Senator Kerry [continuing]. Coming in. Thank you.
    And let's try to make this as rapid a transition as we 
could, please.
    [Pause.]
    Senator Kerry. Mr. Dodaro, thank you, sir. If we could ask 
for your opening--I thank you for your patience. I'd like to 
get your opening in, because I'm under the gun to go downtown. 
I think Senator Coleman is, too. We don't want to cut you off, 
but we want to make sure that you have a chance to lay out your 
arguments. You've heard the testimony of the Secretary, and I 
think it's good for you to come in afterward and take issue 
where you think it's appropriate to, and set the committee 
straight with respect to the record, that would be helpful.

     STATEMENT OF GENE DODARO, ACTING COMPTROLLER GENERAL, 
        GOVERNMENT ACCOUNTABILITY OFFICE, WASHINGTON, DC

    Mr. Dodaro. Yes; thank you very much, Mr. Chairman, members 
of the subcommittee. I appreciate the opportunity today to 
discuss our work on U.S. efforts to address the terrorist 
threat and Pakistan's Federally Administered Tribal Areas.
    I'd like to take a minute to recognize our team, quickly, 
who have worked on this and produced some thoughtful 
contributions to the Congress. With me is Charles Johnson, who 
led the work, and we also have Hynek Kalkus, Ned George, Claude 
Adrien, David Hancock, Karen Deans, Mark Dowling, Jena 
Sinkfield, and Jeff Beelaert.
    In summary, we found that the United States has not met its 
national security goal to destroy terrorist threats and close 
the safe haven of Pakistan's tribal areas. According to U.S. 
Embassy officials in Islamabad, and U.S. intelligence 
documents, since 2002 al-Qaeda and the Taliban have used the 
tribal areas in the border regions in Pakistan to attack 
Pakistani, Afghan, United States and coalition troops, plan and 
train for attacks against United States interests, destabilize 
Pakistan, and spread radical Islamic ideologies that threaten 
United States interests.
    Mr. Chairman, the DNI assessment that you mentioned in your 
opening statement also caught our attention, clearly. And the 
fact that al-Qaeda is now using the Pakistan safe haven to put 
in place the last elements necessary to launch an attack on 
America is disconcerting.
    The task of addressing the terrorist threat in this region 
is a difficult one, complicated by its unique characteristics. 
I'd mention, on the map here before you, as you well know, it's 
a 373-mile region. Inhabitants in this area are some of the 
poorest in Pakistan, with per capita income of about $250 a 
year, the overall literacy rates less than 20 percent, and 
infrastructure and health care are underdeveloped. Residents 
are also legally separate from, and unequal to, other Pakistani 
citizens; for example, there's no access to national political 
parties, no rights of appeal to Pakistani courts.
    Now, to address, as we've heard today, its national 
security goals in Pakistan's tribal area and border regions the 
United States has relied principally on the Pakistani military. 
There have been relatively limited development assistance or 
efforts to improve governance as a means to mitigate underlying 
causes of terrorism.
    As shown in this chart, which Senator Menendez mentioned 
earlier, and just to clarify, these are funds that we looked 
at, that were dedicated to the Pakistani tribal areas. I think 
the Deputy Secretary was referring to all funds in Pakistan. 
But, for those funds that were dedicated to the Pakistani 
tribal areas, 96 percent of the $5.8 billion were the 
reimbursements for the Pakistani military through the Coalition 
Support Funds; 3 percent was directed toward a border security 
program; and 1 percent was spent on AID development activities. 
And this is for the 2002-07 period, so it does not yet cover 
some of the planned activities that the Deputy Secretary 
mentioned. However, in terms of where the bulk of the money is 
going, that----
    Senator Kerry. That's 96 percent of the $5.8 billion----
    Mr. Dodaro. Right, that's correct.
    Senator Kerry [continuing]. Not of the 11.
    Mr. Dodaro. That's correct.
    Senator Kerry. OK.
    Mr. Dodaro. That's correct. We're--our focus was looking at 
the tribal areas and the border----
    Senator Kerry. Understood.
    Mr. Dodaro [continuing]. Region.
    Senator Kerry. Understood.
    Mr. Dodaro. And that clarifies, I believe, that point for 
the committee.
    Now, while these military operations have been reported to 
produce some positive outcomes, as the Deputy Secretary 
mentioned, United States and Pakistani Government officials in 
power at the time of our review recognized that relying 
primarily on the Pakistani military has not succeeded in 
neutralizing al-Qaeda and closing the safe havens in Pakistan's 
tribal areas. In 2006, United States officials, in conjunction 
with the Pakistani Government, began an effort to focus more 
attention on other key elements of national power, such as 
development, infrastructure, and public diplomacy, in addition 
to the military efforts to address national security goals in 
the tribal areas. However, a comprehensive plan has not yet 
been developed, nor formally approved, by United States 
Government stakeholders who would play a key role in the 
funding and development of such an effort, and support from the 
recently elected Pakistani Government is uncertain.
    Now, we believe a comprehensive plan is needed. I was very 
pleased to hear the Deputy Secretary acknowledge that more 
could be done in the planning area, and that efforts were 
underway to strengthen and bolster their planning activity 
efforts. This is----
    Senator Kerry. I apologize----
    Mr. Dodaro. Sure.
    Senator Kerry [continuing]. May I break in so we can----
    Mr. Dodaro. Sure.
    Senator Kerry. Because we heard the dialogue.
    Mr. Dodaro. Right.
    Senator Kerry. And we've got your testimony, here.


    [The prepared statement of Mr. Dodaro follows:]

    Prepared Statement of Gene Dodaro, Acting Comptroller General, 
            Government Accountability Office, Washington, DC

    Mr. Chairman and members of the subcommittee, I am pleased to be 
here today to discuss U.S. efforts to assist Pakistan combat terrorism 
in Pakistan's Federally Administered Tribal Areas (FATA) and border 
region. My testimony is based on our two recent reports on the United 
States lack of a comprehensive plan to destroy the terrorist threat and 
close the terrorist safe haven in the FATA, and preliminary results 
from our ongoing examination of U.S. Coalition Support Funds (CSF) 
reimbursements to Pakistan.\1\ Since October 2001, the United States 
has provided Pakistan with over $10 billion for military, economic, and 
development assistance activities in support of the critical U.S. 
national security goals of destroying terrorist threats and closing 
terrorist safe havens.\2\ Approximately $5.8 billion of this amount has 
been directed at efforts to combat terrorism in Pakistan's FATA and 
border region.
---------------------------------------------------------------------------
    \1\ See GAO-08-622, ``Combating Terrorism: The United States Lacks 
Comprehensive Plan to Destroy the Terrorist Threat and Close the Safe 
Haven in Pakistan's Federally Administered Tribal Areas'' (Washington, 
DC: Apr. 2008); and GAO-08-735R, ``Preliminary Observations on the Use 
and Oversight of U.S Coalition Support Funds Provided to Pakistan'' 
(Washington, DC: May 2008).
    \2\ These goals have been set forth in the 2002 ``National Security 
Strategy,'' the 2003 ``National Strategy for Combating Terrorism,'' and 
the 2004 ``9/11 Commission Report,'' and have been endorsed by the 
Intelligence Reform and Terrorism Prevention Act of 2004 (P.L. 108-458, 
sec 7102(b)(3)) and the Implementing the Recommendations of the 9/11 
Commission Act of 2007 (P.L. 110-53, sec. 2042(b)(2)).
---------------------------------------------------------------------------
    My testimony today discusses (1) U.S. progress in meeting U.S. 
national security goals in Pakistan's FATA region; (2) the status of 
U.S. efforts to develop a comprehensive plan for the FATA; and (3) the 
oversight of U.S. CSF provided to Pakistan.\3\
---------------------------------------------------------------------------
    \3\ See Appendix I for a brief description of our scope and 
methodology. The work on which this testimony is based was conducted in 
accordance with generally accepted government auditing standards.
---------------------------------------------------------------------------
                                summary
    In summary, we found the following:


  <bullet> The United States has not met its national security goals to 
        destroy terrorist threats and close the safe haven in 
        Pakistan's FATA, a mountainous region which shares a 373-mile 
        border with Afghanistan. According to U.S. Embassy officials in 
        Islamabad and U.S. intelligence documents, since 2002, al-Qaeda 
        and the Taliban have used Pakistan's FATA and the border region 
        to attack Pakistani, Afghan, as well as U.S. and coalition 
        troops; plan and train for attacks against U.S. interests; 
        destabilize Pakistan; and spread radical Islamist ideologies 
        that threaten U.S. interests. We found broad agreement that
        al-Qaeda had established a safe haven in the FATA. A 2008 
        Director of National Intelligence (DNI) assessment states that 
        al-Qaeda is now using the Pakistani safe haven to put into 
        place the last elements necessary to launch another attack 
        against America. The FATA's rugged terrain, wide-spread 
        poverty, high unemployment, low literacy, underdeveloped 
        infrastructure, and unique legal structure \4\ all add to the 
        complexity the U.S. and Pakistani Governments face in 
        addressing terrorist threats in this region.
---------------------------------------------------------------------------
    \4\ The FATA is governed by the Frontier Crimes Regulation (FCR) of 
1901. This legal system, codified under British rule, is separate from 
and unequal to the legal system governing the rest of Pakistan. The 
information on foreign law in this report does not reflect our 
independent legal analysis but is based on interviews and secondary 
sources.

  <bullet> The United States has relied principally on the Pakistani 
        military to address its national security goals in the FATA. 
        There has been relatively limited development assistance or 
        efforts to improve governance as a means to mitigate underlying 
        causes of terrorism in the FATA. Of the approximately $5.8 
        billion directed at efforts in the FATA and border region from 
        2002 through 2007, we determined that about 96 percent ($5.56 
        billion) of this amount was used to reimburse the Pakistani 
        Government through CSF \5\ for military operations, 3 percent 
        ($187 million) was directed toward a border security program, 
        and 1 percent ($40 million) was spent on USAID development 
        activities.
---------------------------------------------------------------------------
    \5\ CSF reimburses Pakistan for a variety of activities in support 
of the global war on terror, the majority of which consists of Army and 
Air Force operations against terrorists in Pakistan's FATA and the 
border region. However, some of the CSF also supports Pakistani Navy 
and Air Force activities outside of this area. Defense was unable to 
quantify what was reimbursed for activities outside the FATA and the 
border region at the time of our report, and therefore, we included all 
CSF as funds going toward the FATA and the border region. CSF 
reimbursement funds are paid to the Pakistani Government treasury and 
become sovereign funds.

  <bullet> Defense, State, intelligence, U.S. Embassy, and Pakistani 
        Government officials in power at the time of our review, 
        recognize that relying primarily on the Pakistani military has 
        not succeeded in neutralizing al-Qaeda and preventing the 
        establishment of a safe haven in the FATA. In 2006, the 
        Embassy, Defense, State, and USAID, in conjunction with the 
        Pakistani Government, began an effort to focus more attention 
        on other key elements of national power, such as development 
        assistance, infrastructure improvements, and public diplomacy, 
        to address U.S. national security goals in the FATA. However, 
        this effort has not been formally approved by U.S. Government 
        stakeholders who would play a key role in the funding and 
        implementation of such an effort, and support from the recently 
---------------------------------------------------------------------------
        elected Pakistani Government is uncertain.

  <bullet> A comprehensive approach is needed as required by the 
        administration's own ``National Strategy for Combating 
        Terrorism,'' recommended by the independent 9/11 Commission, 
        and mandated by congressional legislation.\6\ Since 2002, the 
        U.S. Embassy in Pakistan has not had a Washington-supported, 
        comprehensive plan to combat terrorists and close the terrorist 
        safe haven in the FATA. We have recommended that the 
        administration produce a comprehensive plan using all elements 
        of national power to combat terrorist threats and close safe 
        havens in Pakistan's FATA region. The comprehensive plan should 
        also include key components called for in the Intelligence 
        Reform Act and components that we have previously reported as 
        being needed to improve the effectiveness of plans involving 
        multidepartmental efforts to combat terrorism.\7\ Among other 
        things, the plan should:
---------------------------------------------------------------------------
    \6\ The administration's 2003 ``National Strategy for Combating 
Terrorism,'' the independent
``9/11 Commission Report,'' and Congress's (1) Intelligence Reform Act 
and Terrorism Prevention Act of 2004 (P.L. 108-458, sec. 7120) and (2) 
the Implementing the Recommendations of the 9/11 Commission Act of 2007 
(P.L. 110-53, sec. 2042 (c)) all support the development of a 
comprehensive plan that uses all elements of national power. Elements 
of national power include diplomatic, military, intelligence, 
development assistance, economic, and law enforcement support.
    \7\ GAO, ``Combating Terrorism: Law Enforcement Agencies Lack 
Directives to Assist Foreign Nations to Identify, Disrupt, and 
Prosecute Terrorists,'' GAO-07-697 (Washington, DC, May 25, 2007); GAO, 
``Results-Oriented Government: Practices That Can Help Enhance and 
Sustain Collaboration among Federal Agencies,'' GAO-06-15 (Washington, 
DC, Oct. 21, 2005); and GAO, ``Combating Terrorism: Observations on 
National Strategies Related to Terrorism,'' GAO-03-519T (Washington, 
DC, Mar. 3, 2003).


    <bullet> Place someone directly in charge of this multidepartment 
---------------------------------------------------------------------------
            effort to improve accountability;

    <bullet> Articulate a clear strategy to implement the national 
            security goal to destroy terrorists and close the safe 
            haven in the FATA;

    <bullet> Clarify roles and responsibilities of each department for 
            implementing the goal, including establishing compatible 
            policies and procedures to operate across agency 
            boundaries;

    <bullet> Provide guidance on setting funding priorities and 
            providing resources to meet these national security goals; 
            and

    <bullet> Require a monitoring system and provide periodic reports 
            to Congress on the progress and impediments to meeting 
            national security goals in Pakistan.


  <bullet> Continued oversight is needed to ensure the development and 
        effective implementation of a comprehensive plan. Further, it 
        is important that there is sufficient oversight of the billions 
        of U.S. dollars devoted to assisting the Pakistani Government 
        in its efforts to combat terrorism in the FATA. Preliminary 
        results from our ongoing work focusing on the use and oversight 
        of U.S. CSF show that Defense may have recently increased its 
        oversight of CSF. For example, in 2007, Defense officials at 
        the U.S. Embassy in Pakistan--the Office of the Defense 
        Representative to Pakistan (ODRP)--began playing a larger role 
        in overseeing CSF reimbursement claims. Furthermore, Defense 
        recently deferred or disallowed a larger amount of Pakistani 
        claims. Specifically, for the months September 2004-February 
        2007, Defense disallowed or deferred an average of just over 2 
        percent of the Pakistani Government's CSF reimbursement claims. 
        For the most recent reimbursement (March-June 2007 claims) 
        processed in February 2008, Defense disallowed or deferred over 
        20 percent of Pakistan's claim. Our preliminary observations 
        indicated that this was the first time that ODRP recommended 
        significant denials or deferrals of Pakistani claims.\8\ The 
        extent of ODRP's oversight in the future is unclear, given that 
        its role has not been formalized.
---------------------------------------------------------------------------
    \8\ Submitted costs can be (a) recommended for approval; (b) 
``deferred'' and returned for additional documentation; or (c) 
``disallowed'' for not being consistent with the scope of CSF.

  <bullet> In response to our previous reports, Defense and USAID 
        concurred with our recommendation that a comprehensive plan was 
        needed; State asserted that a comprehensive strategy exists, 
        while the Office of the Director of National Intelligence 
        stated that plans to combat terrorism exist. In our view, these 
        plans have not been formally integrated into a comprehensive 
        plan as called for by Congress and that cover the full range of 
        unique challenges associated with the FATA. Additionally, 
        Defense recognized the importance and necessity of oversight 
        over CSF.
                               background
    Some of the characteristics of the FATA make it attractive to 
terrorist groups, such as al-Qaeda and Taliban, seeking a safe haven. 
The FATA is mountainous and shares a 373-mile border with Afghanistan. 
It has an estimated population of 3.1 million people, and is one of 
Pakistan's poorest regions, with high poverty, high unemployment, low 
literacy, and an underdeveloped infrastructure (See fig. 1).
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The FATA is governed by an administrative system and a judicial 
system different from the rest of Pakistan--the Frontier Crimes 
Regulation (FCR) of 1901, codified under British rule.\9\ Because 
Pakistan retained the colonial administrative and legal structures of 
the British, as codified in the FCR, the FATA populations are legally 
separate from and unequal to other Pakistani citizens. Examples of 
these differences under the FCR include:
---------------------------------------------------------------------------
    \9\ The information on foreign law in this report does not reflect 
our independent legal analysis but is based on interviews and secondary 
sources.


  <bullet> The FATA residents do not have access to national political 
        parties, and political parties are forbidden from extending 
---------------------------------------------------------------------------
        their activities into the agencies of FATA.

  <bullet> The FATA is under the direct executive authority of the 
        President of Pakistan. Laws framed by the National Assembly of 
        Pakistan do not apply in the FATA unless so ordered by the 
        President.

  <bullet> FATA residents do not have the right to legal 
        representation. Those convicted are denied the right of appeal 
        in Pakistan's courts.

  <bullet> The President's representatives to the FATA, who are called 
        political agents, can punish an entire tribe for crimes 
        committed on the tribe's territory by issuing fines, making 
        arrests, implementing property seizures, and establishing 
        blockades.


    Defense has noted that the FCR is a culturally acceptable 
recognition of the tribal structure of the FATA, where the population 
is ethnically different from the majority of Pakistan's citizens and 
precludes forced assimilation. Further, Defense noted that removing the 
FCR without a replacement mechanism that is accepted by the indigenous 
population has the potential to create a vacuum that could result in 
negative consequences.\10\
---------------------------------------------------------------------------
    \10\ A recent announcement by Pakistani Prime Minister Yousaf Raza 
Gillani regarding the repeal of the FCR drew mixed reactions from 
tribesmen and political leaders, some of whom called for amendments to 
the FCR, rather than its repeal.
---------------------------------------------------------------------------
The U.S. Government Has Not Met National Security Goals in Pakistan's 
        FATA; al-Qaeda Remains a Threat and Terrorist Safe Haven Still 
        Exists
    The United States has not met its national security goals to 
destroy the terrorist threat and close the safe haven in the FATA. 
While national security strategies have called for the use of all 
elements of national power, such as diplomatic, military, intelligence, 
development assistance, economic, and law enforcement support, to meet 
these goals, the United States has relied principally on supporting the 
Pakistani military. We found broad agreement, however, that al-Qaeda 
has regenerated its ability to attack the United States and succeeded 
in establishing a safe haven in Pakistan's FATA. In particular, the 
2007 National Intelligence Estimate (NIE) and 2008 DNI's ``Annual 
Threat Assessment'' state that al-Qaeda has regenerated its attack 
capability and secured a safe haven in Pakistan's FATA.\11\ These 
conclusions are supported by a broad array of sources, including 
Defense, State, and senior U.S. Embassy officials in Pakistan.
---------------------------------------------------------------------------
    \11\ The DNI's 2007 NIE and its 2008 ``Annual Threat Assessment'' 
are designed to help U.S. civilian and military leaders develop 
policies to protect U.S. national security interests and represent the 
combined judgments of 16 U.S. intelligence agencies, according to the 
NIE.
---------------------------------------------------------------------------
    The DNI's 2008 assessment stated that the safe haven in Pakistan 
provides 
al-Qaeda with many of the same advantages it had when based across the 
border in Afghanistan. According to the assessment, the safe haven in 
the FATA serves as a staging area for al-Qaeda's attacks in support of 
the Taliban in Afghanistan. Further, it serves as a location for 
training new terrorist operatives for attacks in Pakistan, the Middle 
East, Africa, Europe, and the United States. U.S. Government officials 
in Washington and Pakistan also acknowledge that al-Qaeda has 
established a safe haven near Pakistan's border with Afghanistan. The 
NIE also found that in the past 2 years, al-Qaeda's central leadership 
regenerated the core operational capabilities needed to conduct attacks 
against the United States. It also found that al-Qaeda's central 
leadership, based in the border area of Pakistan, is and will remain 
the most serious terrorist threat to the United States.
    The DNI's 2008 assessment and other sources have concluded that the 
resurgence of al-Qaeda terrorists on the border between Pakistan and 
Afghanistan now pose a preeminent threat to U.S. national security. It 
states that al-Qaeda is now using the Pakistani safe haven to put the 
last element necessary to launch another attack against America into 
place, including the identification, training, and positioning of 
Western operatives for an attack. The assessment found that al-Qaeda 
and other Pakistan-based militants now pose a threat to Pakistan. The 
assessment found an unparalleled increase in suicide attacks against 
Pakistan's military and civilians over the past year, with total 
casualties in 2007 exceeding all such attacks in the preceding 5 years. 
These attacks were ordered by Pakistan-based militants, many of whom 
are allied with al-Qaeda. The assessment concluded that radical 
elements now have the potential to undermine Pakistan itself.
The United States Has Relied Primarily on the Pakistani Military to 
        Accomplish Its Goals in Pakistan's FATA, With Limited Focus on 
        Other Elements of National Power
    The United States has relied principally on the Pakistani military 
to address U.S. national security goals in the FATA. There have been 
relatively limited efforts, however, to address other underlying causes 
of terrorism in the FATA, such as providing development assistance or 
addressing the FATA's political needs. For example, although the FATA 
has some of the worst development indicators in Pakistan and is ruled 
under colonial administrative and legal structures dating from 1901, 
the United States has devoted relatively little funding to address 
these issues in the FATA.
    Approximately $5.8 billion has been directed at efforts to combat 
terrorism in Pakistan's FATA and the border region. As figure 2 shows, 
about 96 percent of this amount was used to reimburse the Pakistani 
Government through CSF for military operations in support of Operation 
Enduring Freedom in Afghanistan, most significantly against terrorists 
in Pakistan's FATA and border region. We identified only two 
nonmilitary activities that occurred in the FATA and border region: 
State's border security program, which received about $187 million, and 
USAID development assistance activities, which amounted to about $40 
million.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    According to a State Department report, Pakistan's military forces 
have had some tactical successes in the FATA. The Pakistani Government 
stationed military and paramilitary forces along the border with 
Afghanistan, and security operations in the FATA disrupted terrorist 
activity by targeting and raiding al-Qaeda and other militant safe 
havens.\12\ According to State, Pakistan has helped kill or capture 
hundreds of suspected terrorists, including al-Qaeda operatives and 
Taliban leaders.
---------------------------------------------------------------------------
    \12\ Department of State report to Congress, pursuant to Section 
2042 of the Implementing Recommendations of the 9/11 Commissions Act of 
2007 (P.L. 110-53).
---------------------------------------------------------------------------
Key Government Stakeholders Recognize That a More Comprehensive 
        Approach Is Needed
    Defense, State, U.S. Embassy, and Pakistani Government officials 
recognize that relying primarily on the Pakistani military has not 
succeeded in neutralizing
al-Qaeda and preventing the establishment of a safe haven in the FATA. 
State's April 2007 ``Country Reports on Terrorism'' states that, 
despite having Pakistani troops in the FATA, the Government of Pakistan 
has been unable to exert control over the area. The report concluded 
that Pakistan has now recognized that military operations alone would 
not restore security and stability to the FATA. Similarly, U.S. Embassy 
officials in Pakistan stated that Taliban and al-Qaeda elements have 
created a safe haven in the FATA and have used it to plan and launch 
attacks on Afghan, Pakistani, U.S., and coalition forces in Afghanistan 
and Pakistan. The Embassy further noted that al-Qaeda and the Taliban 
continue to recruit, train, and operate in the FATA.
No Comprehensive Plan for Guiding U.S. Efforts in the FATA Has Been 
        Developed, as Called for by the Administration and Congress
    The National Strategy for Combating Terrorism (2003), the 
independent 9/11 Commission (2004), and Congress in repeated 
legislation (2004 and 2007) recognized that a comprehensive plan 
employing all elements of national power--diplomatic, military, 
intelligence, development assistance, economic, and law enforcement 
support--was needed to combat terrorism and close terrorist safe havens 
in Pakistan's FATA region. However, a comprehensive plan to meet U.S. 
national security goals in the region has not yet been developed. Even 
after the creation of the National Counterterrorism Center (NCTC), an 
organization specifically intended to develop, implement, and monitor 
multidepartment plans to combat terrorism, the Embassy has lacked a 
Washington-approved, comprehensive plan that combines the capabilities 
of Defense, State, USAID, intelligence agencies, and other U.S. 
departments to combat terrorism in the FATA.
    In addition, Defense, State, Embassy officials, the DNI, and USAID 
recognize that a comprehensive approach is needed to meet U.S. national 
security goals in Pakistan. The Pakistani Government in power at the 
time of our review, also recognized that it must take a more 
comprehensive approach to defeating terrorism and that an intensified 
and sustained effort that combines administrative, economic, 
educational, legal, and social reforms to defeat the terrorist threat 
is required, according to the DNI.\13\
---------------------------------------------------------------------------
    \13\ Annual Threat Assessment of the Director of National 
Intelligence for the Senate Select Committee on Intelligence, February 
5, 2008.
---------------------------------------------------------------------------
Pakistan and the U.S. Embassy Are Encouraging More Focus on Other Key 
        Elements of National Power to Achieve U.S. Goals in the FATA
    In March 2006, the President of Pakistan requested that the United 
States support Pakistan's effort to support a more comprehensive 
approach to combating terrorism in the FATA. As a result, the U.S. 
Embassy in Pakistan began coordinating efforts by Defense, State, and 
USAID to develop department-specific efforts to support Pakistan's 
Sustainable Development Plan for the FATA. Pakistan's Sustainable 
Development Plan is a 9-year, $2 billion effort to provide economic 
development, extend the influence of the Pakistani Government, and 
establish security in the FATA. To assist this effort, Defense 
undertook a counterinsurgency assessment in the FATA and began 
developing its Security Development Plan. At the same time, USAID 
provided technical assistance to the Pakistani Government to help 
formalize its Sustainable Development Plan, as well as to plan USAID-
development assistance activities in the FATA. This approach, if 
approved by the administration and key U.S. Government agency 
stakeholders, would constitute the U.S. Government's first attempt to 
focus more attention on other key elements of national power to address 
U.S. counterterrorism goals in the FATA.
            Proposed bilateral efforts to focus on more elements of 
                    national power
    According to officials with the U.S. Embassy and Pakistani 
Government officials in power at the time of our review, a more 
comprehensive approach is critical to addressing the terrorist threat 
in the FATA and would represent a significant departure from the past. 
As such, the United States began an effort in fiscal year 2007 to 
provide over $1 billion from fiscal year 2007 through 2011 for 
development assistance, security, infrastructure, and public diplomacy 
in support of the Pakistani Government. This approach represents the 
first effort by the U.S. Embassy to directly plan, implement, 
coordinate, and monitor a multidepartment effort to combat terrorism in 
the FATA.
    The embassy planned to spend $187.6 million on this initial effort 
using fiscal year 2007 funds. The funding has been directed to four 
areas:


  <bullet> Development: The $99 million development effort would be led 
        by USAID and would include capacity-building for the FATA 
        institutions needed to plan, manage, and monitor development 
        projects; efforts to build community and government relations; 
        funding for health and education services; and efforts to 
        increase employment and economic growth.\14\
---------------------------------------------------------------------------
    \14\ In providing agency comments on GAO-08-622, USAID stated it 
received $88 million for these efforts in the Fiscal Year 2007 
Supplemental Appropriation.

  <bullet> Security: The $54.1 million Defense and State security 
        effort would include training for military and paramilitary 
        units in the FATA--including the Frontier Corps, special 
        operations forces, and air crews--and for providing night 
---------------------------------------------------------------------------
        vision goggles, radios, and other equipment.

  <bullet> Infrastructure: The $32.5 million the U.S. Embassy has 
        designated for infrastructure improvements related to both its 
        security and development efforts would be used for road 
        construction, the Frontier Corps training center, and border 
        surveillance outposts.

  <bullet> Public diplomacy: $2 million in funding was alotted for 
        public diplomacy programs.


    According to the Embassy, the success of this new effort in the 
FATA will depend on close coordination among an array of institutions 
within the U.S. and Pakistani Governments. The new effort also will 
involve partner agencies and allies, including the United Kingdom, 
Japan, and Europe; the Asian Development Bank; nongovernmental 
organizations; and the Pakistani private sector, civil society, and the 
tribes of the FATA.
    This effort, however, does not yet constitute a comprehensive plan 
and has not been formally approved by U.S. Government stakeholders who 
would play a key role in the funding and implementation of such an 
effort. Support from the recently elected Pakistani Government, at the 
time of our review, was also uncertain.
Preliminary Observations on the Use and Oversight of U.S. Coalition 
        Support Funds Provided to Pakistan
    For the period covering October 2001 through June 2007, the United 
States reimbursed Pakistan about $5.56 billion in CSF for military 
operations in FATA and other support in the war on terror. CSF 
reimbursement funds are paid directly into the Pakistani Government 
treasury and become sovereign funds. Once they become sovereign funds, 
the U.S. Government has no oversight authority over these funds.
    In response to a Defense Inspector General review conducted in 
2003, Defense implemented additional guidance to improve oversight of 
the CSF reimbursed to Pakistan. Moreover, in 2007, the ODRP began 
playing a larger role in overseeing CSF reimbursement claims.
    In performing oversight, ODRP reviews the Pakistani claims and 
indicates that, to the best of its knowledge, military support was 
provided and expenses were actually incurred. U.S. Central Command 
(CENTCOM) then validates that Pakistani operations listed were 
essential to support U.S. military operations in the theater. The 
claims are sent to the Office of the Under Secretary of Defense for 
Comptroller, who (1) performs a macrolevel review comparing the cost to 
similar operations, and (2) assesses whether the cost categories are 
reasonable, selected subcategories are reasonable compared to U.S. 
costs, and costs are consistent with previous claims. In addition, both 
the Under Secretary of Defense for Policy and the State Department 
verify that the reimbursement is consistent with the U.S. Government's 
National Security Strategy and that the CSF payment does not adversely 
impact the balance of power in the region.
    In recent months,\16\ Defense has disallowed or deferred a larger 
amount of CSF reimbursement claims from Pakistan, as shown in figure 3.
---------------------------------------------------------------------------
    \16\ The March-June 2007 claims reimbursed in February 2008 are the 
latest claims reimbursed by DOD Comptroller, as of May 2008.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    We plan to monitor the status and progress of the U.S. Government 
in developing this effort and provide an assessment in a subsequent 
report covering security, political, and development assistance 
activities undertaken by the United States to meet U.S. national 
security goals in the FATA. This work is being conducted in response to 
requests from the House Committee on Foreign Affairs; the Subcommittee 
on the Middle East and South Asia, House Committee on Foreign Affairs; 
the Subcommittee on National Security and Foreign Affairs, House 
Committee on Oversight and Government Reform; Senator Harkin; and 
Senator Menendez.
                               conclusion
    Combating terrorism is the United States' top national security 
priority at home and abroad. The U.S. national security strategies have 
consistently called for using all elements of national power to combat 
terrorism, including diplomatic, military, intelligence, development 
assistance, economic, and law enforcement support. Because the use of 
the various elements of national power falls under the authority of 
numerous U.S. Government agencies, a comprehensive plan is required to 
ensure that the full capacity of the U.S. Government is focused on 
meeting U.S. national security goals.
    We believe that such a plan would help to ensure coordination, 
integration, and implementation of U.S. efforts to close the terrorist 
safe haven in the FATA. A comprehensive plan to combat terrorism in the 
FATA that establishes goals, objectives, priorities, outcomes, and 
milestones, including specific performance measures, would allow an 
assessment of progress and help ensure accountability of U.S. efforts. 
As such, we believe that the administration should develop a 
comprehensive plan using the full capabilities provided by Defense, 
State, USAID, and other U.S. agencies and stakeholders to further 
assist Pakistan in combating terrorism.
    Additionally, the U.S. has spent billions of CSF on Pakistan 
military operations in the FATA border region. As these funds continue 
to support Pakistani operations in the FATA, it is important that there 
is adequate oversight.
               prior recommendations for executive action
    In our report issued in April 2008, we recommended that the 
National Security Advisor and the Director of the NCTC, in consultation 
with the Secretaries of Defense and State, and the Administrator of 
USAID, the intelligence community, and other executive departments as 
deemed appropriate, implement the congressional mandate to develop a 
comprehensive plan using all elements of national power to combat the 
terrorist threat and close their safe haven in Pakistan's FATA region.
    The comprehensive plan should also include key components called 
for in the Intelligence Reform Act, the Implementing Recommendations of 
the 9/11 Commission Act of 2007, and components that we have previously 
reported as being needed to improve the effectiveness of plans 
involving multidepartmental efforts to combat terrorism.\16\ Among 
other things, the plan should:
---------------------------------------------------------------------------
    \16\ GAO-07-697, GAO-06-15, and GAO-03-519T.


  <bullet> Place someone directly in charge of this multidepartment 
---------------------------------------------------------------------------
        effort to improve accountability;

  <bullet> Articulate a clear strategy to implement the national 
        security goal to destroy terrorists and close its safe haven in 
        the FATA;

  <bullet> Clarify roles and responsibilities of each department for 
        implementing the goal, including establishing compatible 
        policies and procedures to operate across agency boundaries;

  <bullet> Provide guidance on setting funding priorities and providing 
        resources to meet these national security goals; and

  <bullet> Require a monitoring system and provide periodic reports to 
        Congress on the progress and impediments to meeting national 
        security goals in Pakistan.
                   agency comments and our evaluation
    In response to our previous reports, Defense and USAID concurred 
with our recommendation that a comprehensive plan was needed, State 
asserted that a comprehensive strategy exists, while the Office of the 
Director of National Intelligence stated that plans to combat terrorism 
exist. In our view, these plans have not been formally integrated into 
a comprehensive plan as called for by Congress. Additionally, Defense 
recognized the importance and necessity of oversight over CSF.
    Mr. Chairman, this concludes my statement. I would be pleased to 
answer any questions that you or other members have at this time.
                                 ______
                                 

                   Appendix I: Scope and Methodology

    Our objectives and findings for this testimony were based on two 
recently issued reports.\1\ To address these objectives, for our 
earlier reports, we reviewed relevant national security strategies, the 
9/11 Commission Report, key congressional legislation, and related 
documentation from the Departments of Defense (Defense) and State 
(State) and the U.S. Agency for International Development (USAID), and 
discussed these issues with relevant department officials.\2\ To 
determine progress in meeting national security goals, we compared the 
national security goals with unclassified assessments conducted by the 
Director of National Intelligence (DNI), State, and U.S. officials 
operating in Pakistan. We have previously reported on the need for 
plans to combat terrorism to include elements that would enhance 
interagency cooperation and improve effectiveness.\3\
---------------------------------------------------------------------------
    \1\ GAO-08-622, GAO-08-735R.
    \2\ We also requested meetings with the Central Intelligence Agency 
(CIA), the National Counterterrorism Center (NCTC), and the National 
Security Council (NSC); however, only the CIA agreed to meet with us.
    \3\ GAO-07-697.
---------------------------------------------------------------------------
    To determine if comprehensive plans that included these key 
elements were developed and contained the elements recommended by 
national security documents and legislation, we requested all plans 
addressing U.S. efforts in the FATA from the Central Intelligence 
Agency (CIA), Defense, NCTC, NSC, State, USAID, and the U.S. Embassy in 
Pakistan. We reviewed all plans made available from Defense, State, 
USAID and the U.S. Embassy in Pakistan. The CIA, NCTC, and National 
Security Council (NSC) did not provide any plans.
    In addition, we conducted field work in Pakistan in both Islamabad 
and Peshawar, near the FATA, and met with officials from the U.S. 
Embassy and consulate, Pakistan's Ministries of Defense and Interior, 
the 11th Army Corps, the Frontier Corps, the FATA Secretariat, and a 
Pakistani nongovernmental organization with experience working in the 
FATA, as well as international donors.\4\ We determined the amount of 
U.S. funding to Pakistan by analyzing Defense, State, and USAID budget 
documents covering the period from fiscal years 2002 through 2007. We 
determined the amount and oversight process used for CSF reimbursements 
to Pakistan by analyzing Defense documents covering reimbursement 
claims for the period from fiscal years 2002 through June 2007.
---------------------------------------------------------------------------
    \4\ We met with international donors from Canada, Japan, the 
Netherlands, and the United Kingdom.
---------------------------------------------------------------------------
    We conducted these performance audits from July 2007 through May 
2008 in accordance with generally accepted government auditing 
standards. Those standards require that we plan and perform the audit 
to obtain sufficient, appropriate evidence to provide a reasonable 
basis for our findings based on our audit objectives. We believe that 
the evidence obtained provides a reasonable basis for our findings. 
based on our audit objectives.

    Senator Kerry. When you hear the Secretary say the ``glass 
half full, glass half empty,'' is that a fair explanation of 
where we are?
    Mr. Dodaro. The assessment basically is--I think there's 
been a lot of planning activities at individual departments and 
agencies level over time. I think the shift away from the 
military operations alone could have occurred earlier in the 
process.
    Senator Kerry. But, are they happening now?
    Mr. Dodaro. Pardon me?
    Senator Kerry. Are they happening now----
    Mr. Dodaro. It seems----
    Senator Kerry [continuing]. To your satisfaction?
    Mr. Dodaro. It seems to be, Senator, but until there's a 
comprehensive plan put together that's approved and that's 
funded and that everybody acknowledges it, I think it remains 
to be seen what the strategy will be. And, as I mentioned, we 
still have to, now, negotiate with the new Government in 
Pakistan to try to get agreement on what our plan would be. And 
this is a really important point, because I think, what our 
emphasis has been is to say that, ``You need a comprehensive 
plan that's documented.'' That plan can then be shared with the 
Congress, it can be shared with Pakistani Government officials, 
it can be shared with the international donor community so they 
could decide how they want to supplement that plan. And, 
importantly, that plan needs to be documented as we approach an 
upcoming transition to a new administration and a new 
President.
    Senator Kerry. I assume you would agree that certain 
components of whatever that comprehensive plan are going to be 
classified and not appropriate to a public discussion. Is that 
part correct?
    Mr. Dodaro. Yes. Yes. That's----
    Senator Kerry. So, lay out for us the parts where you think 
appropriate--why do you believe DOD and USAID are expressing 
dissatisfaction with the current level of plan? What do they 
think is missing in their judgment?
    Mr. Dodaro. Well, what we believe is missing are several 
elements. One, it's not clear who's in charge to integrate all 
the efforts of the individual activities. Second, it's----
    Senator Kerry. Is that from both sides of the border? Is 
that in Pakistan or Afghanistan? Or is that regionally?
    Mr. Dodaro. Right now I'm just talking about U.S. planning 
efforts.
    Senator Kerry. Oh, really?
    Mr. Dodaro. Yes.
    Senator Kerry. Just in terms of----
    Mr. Dodaro. Right.
    Senator Kerry [continuing]. It's not clear who's in charge.
    Mr. Dodaro. Well, when you have multiple agencies 
involved--and this is a real challenge, I think, for our 
Government in the 21st century--more and more challenges that 
we confront involve--have to involve efforts of multiple 
agencies over a period of time. And in order to make sure that 
the roles and responsibilities are clearly articulated, 
comprehensive planning is becoming more and more important, 
whether you're dealing with national security issues, a 
Hurricane Katrina situation, planning for a pandemic, dealing 
with the world food security crisis, our Government has to be 
more flexible and develop plans that transcend bureaucratic 
boundaries.
    Senator Kerry. Let me ask you a question.
    Mr. Dodaro. Sure.
    Senator Kerry. Does anybody believe they are in charge?
    Mr. Dodaro. I wish you would have asked that question to 
the Deputy Secretary, but I'm not sure.
    Senator Kerry. You literally don't know. There's nobody who 
says, ``I'm in charge.'' Who convenes the interagency meetings 
on this issue?
    Mr. Dodaro. I think it's----
    Mr. Johnson. The National Security Council, along with the 
National Counterterrorism Center, should play a lead role.
    Mr. Dodaro. Yes, basically, as Charles was saying, the 
National Security Council is in the position to prepare this--
--
    Senator Kerry. They're a convener----
    Mr. Dodaro. Is the----
    Senator Kerry [continuing]. Of the----
    Mr. Dodaro [continuing]. Is the convener, and----
    Senator Kerry. But, it's your testimony to the committee 
that there is no designated person in charge within that 
framework.
    Mr. Dodaro. I'd have to provide an answer for the record on 
that, Senator, and go back and consult with the team.

    [The information referred to above follows:]

    During the period in which we completed our review (July 2007 
through May 2008) we were not directed to any individual at the 
National Security Council, the National Counterterrorism Center, or any 
U.S. Government agency as the person in charge of or responsible for 
putting together a comprehensive U.S. strategy for combatting terrorism 
in Pakistan's Federally Administered Tribal Areas.


    Senator Kerry. But, whatever----
    Mr. Dodaro. Our point is, Senator, if I could just 
clarify----
    Senator Kerry. Right.
    Mr. Dodaro [continuing]. Is that, basically, the plan would 
articulate that, along with clear roles and responsibilities--
--
    Senator Kerry. And you're saying it doesn't.
    Mr. Dodaro. We're saying that we've not seen an integrated 
comprehensive plan. That's basically what we're saying, that's 
what we've recommended----
    Senator Kerry. To what degree is the lack of 
comprehensiveness defined by Pakistan itself and the 
complications of the FATA, historically?
    Mr. Dodaro. Well, I think there's clearly complications 
associated with the characteristics of the region that are 
difficult to deal with, and that's why I think a plan that has 
all the elements of national power are important. In addition 
to the military, you need the diplomatic, economic, 
intelligence, development assistance, and law enforcement.
    Senator Kerry. Then that comprehensive piece has been 
missing----
    Mr. Dodaro. Yes.
    Senator Kerry [continuing]. Over these past few----
    Mr. Dodaro. Yes; there are individual plans, and this is 
where we agree with the Secretary that there have been 
individual plans of departments and agencies. There have been 
interagency discussions, there's a lot of dialogue going on, 
but it hasn't coalesced into a coherent, comprehensive 
framework, and that's why I was encouraged to hear him say that 
they were moving, it appeared to be, in that direction.
    Senator Kerry. I view it as what is sort of the equivalent 
of my time for questioning. I'll yield to Senator Coleman, and 
Senator Menendez is going go close out the hearing. He'll chair 
for me, because I have to go to another thing, and I apologize.
    Mr. Dodaro. All right.
    Senator Coleman. Thank you, Mr. Chairman.
    In terms of the funds that we have spent, how concerned are 
you that these funds have been used for the purposes which they 
were intended?
    Mr. Dodaro. Senator, if we could put up our last chart, we 
are in the process of looking at that right now, and what we've 
observed is that the DOD is looking at and questioning some of 
the reimbursements from the Pakistani Government. As you can 
see by the spike in the chart here, in the March to June 2007 
period, about 20 percent of the claims for reimbursement from 
the Pakistani Government have been questioned, compared to only 
just over 2 percent that were questioned for the months between 
September 2004 and February 2007. So, we think that there's 
more oversight, but that part of the DOD process has yet to be 
formalized. So, we're looking more indepth at that now, as part 
of the request from Senator Menendez and others, and we hope to 
have a more formal report later.
    Senator Coleman. So, you're not in a position to provide 
any level of confidence that the bulk of the funds have been 
devoted to the purposes for which they were intended?
    Mr. Dodaro. I think it's premature--it's premature for us 
to make that judgment until we complete all the work, Senator.
    Senator Coleman. In terms of the coordination of the 
effort, what's the capacity of the National Counterterrorism 
Center to play a central role in coordinating a comprehensive 
strategy?
    Mr. Dodaro. Let me have Mr. Johnson respond to that 
question.
    Mr. Johnson. Well, specifically, the National 
Counterterrorism Center has been established to actually do 
that, to bring these interagency--this interagency effort 
together. It is our understanding that some efforts have been 
initially started, but yet, we have--as Mr. Dodaro mentioned, 
we have not seen an actual plan put in place by the National 
Counterterrorism Center.
    Senator Coleman. Just--and the last question--is the issue 
a question of resources, or is it a question of authority, in 
terms of their role?
    Mr. Johnson. Well, we're not certain about the resource 
issue at this point in time. It's something we will continue to 
look into.
    Senator Coleman. Thank you.
    Mr. Chairman.
    Senator Menendez [presiding]. Thank you, Senator Coleman.
    Mr. Dodaro, let me first thank you and your team for the 
work that you've done in this regard. I think it's critical 
that Congress have the most objective, best, well-informed 
analysis possible, and I think your team has done a pretty good 
job of understanding a complex set of issues, and I want to 
thank you for your professionalism.
    I appreciate your clarification on the chart that I was 
referring to. I was referring to all of the money that, in 
fact, was going to the FATA region when I mentioned $11 
billion, that's our overall program. You didn't look at that 
part that did not go to the FATA region, as I understand it, 
right?
    Mr. Dodaro. I----
    Senator Menendez. Did you look at the other $5 billion or 
so?
    Mr. Dodaro. We're looking at that now.
    Mr. Johnson. Yes; we're looking at that now.
    Mr. Dodaro. Yes; we have that----
    Senator Menendez. You didn't look at it?
    Mr. Dodaro. We're looking at that now as part of----
    Senator Menendez. You're looking at it now.
    Mr. Dodaro [continuing]. The broader effort, yes.
    Senator Menendez. OK. So, we'll look forward to your answer 
on that.
    But, as it relates to the $5.8 billion that did go to the 
FATA region, your chart, where 96 percent goes to military 
efforts, is still the case, is that correct?
    Mr. Dodaro. Yes. For the--yes, for the money that went into 
the--those areas, yes.
    Senator Menendez. Which is around $5.8 billion?
    Mr. Dodaro. $5.8----
    Senator Menendez. All right.
    Mr. Dodaro [continuing]. That's correct--billion.
    Senator Menendez. So, what I find interesting is that I 
hear now a lot of talk about, ``We need to do elements of 
development assistance,'' but, in fact, you know, we don't 
have--we've done--at least for the first $5.8 billion, we've 
done 1 percent of that. And so, it seems to me that that's a 
different scenario.
    Let me ask you this: With reference to this chart that you 
have on the--up there, you see this large spike in the claim 
amounts disallowed or deferred by the United States. Can you 
explain how it is that we go from a relatively stable process 
to a sudden spike in, I guess it was, March 2007?
    Mr. Dodaro. Yes; my understanding is that DOD began a 
special effort, around that time, to have a designated 
individual take a closer look at some of the reimbursement 
claims.
    Senator Menendez. Because it seems to say that someone came 
in, took a look at the receipts, and said, ``Wait a minute, 
what's going on here?''
    Mr. Dodaro. That's basically what we've noticed so far. 
We're going to dig deeper in--to try to understand a little bit 
more about why, and----
    Senator Menendez. Do you think your subsequent report, 
which we hope is going to come out sometime toward the end of 
June, is going to give us some insights in this, or whenever 
your timeframe is? What is----
    Mr. Dodaro. I believe----
    Senator Menendez [continuing]. Your timeframe?
    Mr. Dodaro. I believe so, Senator. Let me ask Charles.
    Mr. Johnson. Yes; we do intend to get more indepth on the 
oversight process, how that's evolved over time----
    Senator Menendez. Because I----
    Mr. Johnson [continuing]. Whether or not there is adequate 
oversight and accountability
    Senator Menendez. I know that we held a hearing, in 
December of last year, about the whole question of, where are 
these payments going, and what is the value in return? And, you 
know, we just see a spike that all of a sudden--seemed pretty 
much flat-lined and then all of a sudden has this huge spike. 
So, it seems to me there was--from a couple of years in which 
either there wasn't the intensity of paying attention with the 
billions of dollars, or there was a dramatic change--something 
happened. And whether that is the intensity of oversight or 
whether that is a series of actions by the Pakistanis that were 
disallowed, something dramatically happened.
    Mr. Dodaro. Definitely, it points to something that we need 
to delve deeper into, Senator Menendez, and we will include 
that in our report.
    Senator Menendez. Let me ask you this: In the agency 
comments section of your report, I understand that the 
Department of Defense and AID concurred with your 
recommendations to develop a comprehensive plan to combat the 
terrorist threat and close the safe haven in the FATA. Is that 
correct?
    Mr. Dodaro. That's correct.
    Senator Menendez. Now, the Department of State asserts that 
a comprehensive strategy already exists, and, in their 
comments, they repeatedly reference both a plan and a strategy. 
Have you see either the plan or the strategy that the 
Department of State is referencing in their comments?
    Mr. Dodaro. My understanding is--and I'll ask Charles to 
elaborate on this, if he feels necessary--my understanding is, 
when they refer to the ``strategy,'' they're referring to the 
individual plans in the interagency working efforts and those 
issues. We have not seen a comprehensive plan, which is why we 
recommended that one be developed.
    Senator Menendez. Well, there can't be a comprehensive plan 
if two major governmental entities, the Department of Defense 
and USAID, say that they agree with you that there is no plan 
and there needs to be a plan, and only one element of that team 
says that, ``Yeah, we have a plan.'' I mean, something is 
fundamentally wrong. It doesn't take a rocket scientist to 
figure that out.
    Mr. Dodaro. I would agree with you, Senator. I mean, we 
basically think the situation is that the individual agencies 
have their plan activities, they meet, but there is no 
comprehensive plan that we've seen or--and that's why we 
recommend that it be produced. And I think that's what the 
Deputy Secretary was referring to earlier when he said that 
they're looking at how to strengthen their planning efforts, 
and hopefully tie these individual plans together, deal with 
all the elements of national power, and include some key 
components of a plan that you would want to see in order to be 
able to measure progress over time.
    Senator Coleman mentioned, earlier, the question of 
metrics. The question of metrics ought to be included in a 
plan, and that would be standard activity. So, those are the 
type of elements that we've pointed out that need to be 
addressed in the comprehensive plan.
    Senator Menendez. Well, I appreciate at least what you've 
done so far. Of six elements of national power, only three were 
used to any extent, and 96 percent of it was all in military. 
And it seems to me that that--how one measures what is the 
value received for that type of investment, in terms of the 
success of undermining those who wish our country, as well as, 
as I view it, Pakistan and others, harm, is a measurement that, 
at least from my point of view, would be lacking for the 
investment that was made. But, I'm looking forward to your full 
report, as one of the requesters, and I hope the chairman will 
reconvene us at that time.
    Senator Lugar.
    Senator Lugar. Well, thank you very much, Mr. Chairman.
    I appreciate your report really fastening on the 
characteristics of the FATA area; as you point out, 373 miles 
of border, 3.1 million people. But then, strikingly, these are 
people who do not have representation in the Pakistani 
Government, essentially, nor recourse to courts.
    Now, you know, as Americans have thought about this 
situation, it is difficult for us to imagine a section of a 
country that has no recourse to either the legislative powers 
or the judicial powers; and yet, Pakistanis would testify, if 
they were here, that, historically, there has been relatively 
little control by the central government over this particular 
territory. It's not been a no-man's land, but the ability of 
the central government to be effective in the area is almost 
the other side of the coin of these folks not being a part of 
the situation. Nevertheless, it's a part of geographical 
Pakistan, and very important to us because it borders 
Afghanistan.
    Now, as you've also pointed out, in dealing with this, 
we've had multiagency attempts. They have not been well 
coordinated. There has not been a master plan or an overall 
plan. This, unfortunately is characteristic, in my judgment, of 
our overall view of Afghanistan, as we've had hearings there. 
We've asked, What is the business plan? How does this plan 
work? Usually the testimony has been, ``We've made progress.'' 
And, incrementally, province by province, someone could show 
that something good happened. But, in terms of the overall 
predicament of the stability of that government, its maturity, 
its working through the problems of economic growth, education, 
problems of bringing women into the society, and so forth, 
there would have been bits and pieces.
    And I think, you know, perhaps--and I agree with Senator 
Menendez--the asking of GAO to go after this may offer, once 
again, a spur for organization at this stage, because the 
problem continues on.
    Now, the practical reason for our dilemma is that Pakistan 
is a sovereign nation. Pakistan has not been willing to permit 
United States forces to go back and forth across the border, 
conduct air raids, military strikes, and so forth. Certainly, 
this has been suggested by military commanders from time to 
time. Those efforts have been rebuffed.
    So, now we come to a whole new government in Pakistan, as 
we explored with the previous witnesses, we are not really 
certain exactly where stability may lie and where their general 
situation may lie, what kind of problems that have arisen, 
internally, even with food problems for the whole country, 
quite apart from this border region.
    And all of us have to become much more sophisticated in 
understanding Pakistan and Afghanistan if we're ever to come to 
policies, hopefully unified ones, or some plan. But, it is very 
timely that we consider this, because it's a critical element 
in our success, or that of our friends in Afghanistan--is 
really influenced by how well we do.
    Having said all of that, it's not surprising to me that the 
chart shows 96 percent of the money for military, because this 
is reimbursement of the Pakistani military, who are doing the 
job because our military was not there, could not be there; nor 
are we in a position, really, to go into civil society in the 
FATA area and begin reorganizing their schools or feeding 
programs or what have you. We could once again reimburse the 
Pakistani Government, but then this leads to the audit problem 
with which you're now dealing. How well do the Pakistanis do 
these functions even after we offer funds for them to do these 
things? And, it is a mixed bag, and as you get into it further, 
maybe even more mixed.
    So, I look upon this hearing, once again, sort of, as a 
metric of its own. We, sort of, understand what's been going on 
for several years, but how unsatisfying this is, really, to all 
the parties that are involved, and how fragile the situation 
may still be with regard to the Pakistani Government, vis-a-vis 
Afghanistan--I hope not vis-a-vis our relationship with them. I 
think that certainly there has been an outgoing mission by our 
military people, and many of us have visited with Admiral 
Mullen and others who have spent some quality time there trying 
to understand, from the military standpoint, their military. 
Now, not much has been said, and that's why I, finally, 
conclude with that thought, about the Pakistani military today. 
We've discussed the two elements of the new government, the 
problems of General Musharraf fitting into all this, while the 
judges will come and go. What is sort of, lost track of, right 
now, is: Where does the military fit into all of this? Have 
they become more efficient? Are they better in touch with us in 
that kind of communication, as opposed to through the central 
government? And I ask you, Do you have any preliminary 
thoughts, as you've examined it, as to the efficacy of the 
efforts of the military of Pakistan now? How aggressive are 
they likely to be? How aggressive will they be permitted to be? 
Even if they were aggressive, do they know how to do the job? 
This has been a tough job for them to do, historically.
    Mr. Dodaro. Yes; most of our focus on that area has been in 
looking at DOD's own assessments of the Pakistani military, and 
their view that they could use some counterinsurgency training 
to better deal with the situation and to broaden their range of 
skills beyond traditional military warfare.
    Senator Lugar. Indeed, they could. But, is there any 
propensity whatsoever on the part of those folks to want to 
undertake this training or to work with us to obtain those 
skills?
    Mr. Dodaro. Yes; I'm just not sure, and that's the issue, 
Senator.
    Senator Lugar. So, once again, we're----
    Mr. Dodaro. Yes.
    Senator Lugar [continuing]. We're in a position of 
encouraging people to do the right thing, but this is a 
sovereign country, these are people dealing with whoever is in 
their land, and saying, above all, ``This is our border, this 
is us.'' And, you know, the question, diplomatically, both with 
the military, as well as the civilian assistance, is really of 
the essence, how effective our Government can be, whether it's 
the President of the United States or the Secretary of State or 
Defense or the Joint Chiefs, because somebody really will have 
to come into some rapport with them here, or I fear we will 
examine, again and again, results that are less than 
satisfying, of people that don't necessarily share our means, 
or maybe even our training.
    Mr. Dodaro. I agree completely with your assessment. And 
that's why we think that, if you have a comprehensive approach, 
at least among the U.S. Government, then you're in a position 
to have that dialogue with the----
    Senator Lugar. Yes.
    Mr. Dodaro [continuing]. New Pakistani----
    Senator Lugar. It's a measure----
    Mr. Dodaro [continuing]. Government----
    Senator Lugar [continuing]. Of at least what we want.
    Mr. Dodaro [continuing]. And try to reach and use all the 
potential tools we have, which is even more important, given 
the fact that we're dealing with a sovereign nation.
    Senator Lugar. Yes.
    Well, thank you very much.
    Senator Menendez. Thank you, Senator Lugar. As always, I 
appreciate your overarching view of the matter.
    I just am concerned that, if we are going to spend billions 
more, that we have to have, even with a sovereign country, some 
understanding of what it is that we are spending billions on.
    Senator Lugar. A plan.
    Senator Menendez. A plan that we can at least move to 
mutually agree.
    Senator Coleman, is there anything else you would like?
    Senator Coleman. No, thank you.
    Senator Menendez. Well, with that, on behalf of Senator 
Kerry, thank you for your testimony.
    The record will be--remain open for 2 days. There may be 
other questions submitted by members. If there are, we ask you 
to answer them expeditiously.
    Senator Menendez. Your full statement will be in the 
record. We thank you for your service.
    And, with that, the committee is adjourned.


    [Whereupon, at 4:57 p.m., the hearing was adjourned.]

                                  <all>

</pre></body></html>
